Office of Inspector General—Office of Audit




                                              INFORMATION ON DOL’S EFFORTS TO ENSURE
                                              ACCESS FOR PERSONS WITH DISABILITIES TO
                                              THE ONE-STOP CAREER SYSTEM




                                                                Date Issued:     March 10, 2010
                                                             Report Number:    25-10-001-03-390
                                                                 March 2010
U.S. Department of Labor
Office of Inspector General                                      INFORMATION ON DOL’s EFFORTS TO
Office of Audit                                                  ENSURE ACCESS FOR PERSONS WITH
                                                                 DISABILITIES TO THE ONE-STOP CAREER

BRIEFLY…                                                         SYSTEM

Highlights of Report Number: 25-10-001-03-390 to the             WHAT OIG FOUND
Assistant Secretaries for Employment and Training,               Except for veterans, for whom Federal law mandates
Administration and Management, and Disability                    priority of services, the One-Stop system as a whole
Employment Policy.                                               does not give preference to serving any particular
                                                                 group, and the Department has not established
WHY READ THE REPORT                                              quantifiable goals for serving persons with disabilities
Unemployment among persons with disabilities remains             through the One-Stop system.
high, with a reported unemployment rate of 13.8
percent in December 2009. Moreover, the Employment               Information DOL has on the characteristics and needs
and Training Administration estimates that an additional         of WIA participants with disabilities is limited. Disclosure
20 million working age individuals with disabilities have        of a disability is voluntary and many participants may
dropped out of the labor market.                                 not self-disclose, likely resulting in under-reporting of
                                                                 the number of participants with disabilities. The
The Workforce Investment Act of 1998 (WIA) was                   characteristics reported indicate whether a participant
designed to provide employment and training services             has a disability but not the nature of the disability.
to assist eligible individuals in finding, and qualifying for,   Information regarding the nature of the disability could
meaningful employment through a One-Stop service                 help States and local workforce agencies to develop
delivery system. Section 188 of WIA requires that                appropriate service strategies.
recipients of WIA financial assistance provide persons
with disabilities equal opportunity to participate in and        Overall, persons with disabilities receive the same basic
benefit from One-Stop services.                                  services – such as job search, case management, and
                                                                 occupational skills training – as those without
WHY OIG CONDUCTED THE REVIEW                                     disabilities, although their rates of participation in those
The review was initiated in response to a Congressional          services may vary. DOL’s most visible initiative for
request, and addressed the following questions:                  helping persons with disabilities access and benefit
                                                                 from the One-Stop system has been the Disability
1. 	 What are DOL’s goals for serving persons with               Navigator Program. Disability Navigator positions were
     disabilities?                                               established in 42 states, the District of Columbia, Puerto
                                                                 Rico, Guam and the U.S. Virgin Islands to better inform
2. 	 What information does DOL have regarding the                people with disabilities about the work support
     characteristics and needs of persons with                   programs available at One-Stop Career Centers.
     disabilities?
                                                                 Program exiters with disabilities generally had lower
3. 	 What types of services are persons with disabilities        entered employment rates compared to all exiters. For
     receiving from the One-Stop System?                         example, WIA Adult exiters with disabilities had a 53.4
                                                                 percent entered employment rate compared to
4. 	 What outcomes are achieved by persons with                  68.1 percent for all exiters. However, the employment
     disabilities who use the One-Stop System?                   retention rate for exiters with disabilities was about the
                                                                 same as the retention rate achieved by all exiters.
5. 	 What evaluations of WIA services to persons with
     disabilities has DOL conducted?                             Since 2003, the Department has conducted several
                                                                 independent evaluations of its initiatives to improve
The review covered services and outcomes for exiters             One-Stop services for persons with disabilities,
in the WIA Adult, Dislocated Workers, and Youth                  including evaluations of the Disability Program
programs between Program Years 2003-2008. OIG                    Navigator initiative and various demonstration projects.
based its review solely on information provided by DOL;          Ongoing or planned evaluations include an evaluation
we did not test its accuracy or reliability.                     of the $24 million Disability Employment Initiative, and a
                                                                 review of strategies used by States that serve a high
READ THE FULL REPORT                                             percentage of youth with disabilities while meeting their
To view the report, please go to:                                performance goals.
http://www.oig.dol.gov/public/reports/oa/2010/ 25-10-
001-03-390.pdf
                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1
	

Results In Brief .............................................................................................................. 3
	

Objective 1 — What are the Department’s goals for serving persons with
              disabilities? ......................................................................................... 5
	

Objective 2 — What information does the Department have regarding the
              characteristics and needs of persons with disabilities? ................ 16
	

Objective 3 — What types of services are persons with disabilities receiving from
              the One-Stop System? ...................................................................... 29
	

Objective 4 — What outcomes are achieved by persons with disabilities who use
              the One-Stop System? ....................................................................... 42
	

Objective 5 — What evaluations of WIA services to persons with disabilities has
              the Department conducted?.............................................................. 48
	

Exhibits
         Exhibit 1 WIA Adult Program: Services Received............................................... 57
	
         Exhibit 2 WIA Dislocated Workers Program: Services Received........................ 59
         Exhibit 3 WIA Youth Program: Services Received ............................................. 61
         Exhibit 4 WIA Adult Program: Selected Outcomes ............................................. 63
         Exhibit 5 WIA Dislocated Workers: Selected Outcomes..................................... 65
         Exhibit 6 WIA Youth Program: Selected Outcomes............................................ 67

Appendices
         Appendix A Background ..................................................................................... 71
	
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 75
	
         Appendix C Acronyms ........................................................................................ 77
	
         Appendix D Glossary.......................................................................................... 79
	
         Appendix E ETA Questionnaire and Responses ................................................ 83
         Appendix F ODEP Questionnaire and Responses ............................................. 97
         Appendix G CRC Questionnaire and Responses ............................................. 105
         Appendix H Framework Developed in Response to GAO Report..................... 123
         Appendix I AED Longitudinal Study................................................................. 131
         Appendix J Urban Institute Report (Executive Summary 110404).................... 159
         Appendix K Chronic Homelessness Executive Summary................................. 217
         Appendix L Summary GAO Report 2004.......................................................... 247
         Appendix M 2005 Four-State Study – National Overview Report ..................... 253
         Appendix N Westat Briefing Report .................................................................. 277

                                                                             Ensuring Access to WIA One-Stop System
                                                                                         Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
                                     Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General

U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




March 10, 2010

                         Assistant Inspector General’s Report


Jane Oates, Assistant Secretary for Employment and Training
T. Michael Kerr, Assistant Secretary for Administration and Management
Kathleen Martinez, Assistant Secretary for Disability Employment Policy
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

This report is in response to a request from Congress to provide information about the
Department of Labor’s efforts to ensure that persons with disabilities have
comprehensive access to the One-Stop Career System (One-Stop). Comprehensive
access describes a range of positive actions that recipients of Workforce Investment Act
(WIA) financial assistance might take to provide persons with disabilities equal
opportunity to participate in One-Stop services. Examples of these positive actions
include, but are not limited to, providing architectural access, program accessibility, and
reasonable accommodation. We limited our review to comprehensive access for
persons with disabilities in the WIA formula programs for Adults, Dislocated Workers,
and Youth available through the One-Stop System.

Title I of the Workforce Investment Act (WIA) of 1998 provides funding to States to
provide employment and training services to adults, youth, and dislocated workers. For
Fiscal Year 2010, Congress approved a total of $2.045 billion for the WIA formula
programs. Section 188 of the Workforce Investment Act (WIA) of 1998 prohibits
discrimination on the basis of disability and other factors such as age, gender, and race
and national origin. The Department of Labor’s (DOL) regulations implementing the
nondiscrimination provisions of WIA state that any recipient of WIA financial assistance
must ensure that persons with both physical and other disabilities (e.g., cognitive,
mental health) are provided equal opportunity to participate in, and benefit from, WIA-
financially assisted employment and training services offered through the One-Stop
System.

Three DOL agencies currently play a role in promoting employment and training, or
ensuring equal opportunity to receive employment and training, for persons with
disabilities. The Civil Right Center (CRC), within the Office of the Assistant Secretary or
Administration and Management (OASAM), is responsible for administering and
enforcing WIA Section 188. The Employment and Training Administration (ETA)
monitors States’ and local workforce areas’ compliance with WIA Section 188, and
supports special initiatives to increase accessibility for persons with disabilities. The
Office of Disability Employment Policy (ODEP) conducts research and evaluations to
                                                           Ensuring Access to WIA One-Stop System
                                              1                        Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General

guide the development of policies that promote WIA accessibility and employment for
persons with disabilities.

Our objective was to obtain information from the Department to answer the following
questions:

   1. What are the Department’s goals for serving persons with disabilities?

   2. What information does the Department have regarding the characteristics and
      needs of persons with disabilities?

   3. What types of services are persons with disabilities receiving from the One-Stop
      System?

   4. What outcomes are achieved by persons with disabilities who use the One-Stop
      System?

   5. What evaluations of WIA services to persons with disabilities has the Department
      conducted?

To achieve these objectives, we developed a list of questions covering each of the five
areas. ETA, ODEP and CRC each provided written responses to the questions. The
questionnaires and the agencies’ responses are included as Appendices E, F, and G.
We conducted follow-up interviews with appropriate program officials to obtain
clarification of the information provided. We also reviewed relevant material and
guidance provided by the agencies and information on the web sites of ETA, ODEP,
and CRC, including data on services and outcomes for persons with disabilities reported
by ETA through its Workforce Investment Act Standardized Record Data (WIASRD)
system for Program Years 2003-2008.

We conducted our work at DOL headquarters in Washington, D.C., from December
2009 to February 2010. Our objective, scope, methodology, and criteria are detailed in
Appendix B.




                                                    Ensuring Access to WIA One-Stop System
                                           2                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General

RESULTS IN BRIEF

Section 188 of the Workforce Investment Act and its implementing regulations require
that recipients of WIA financial assistance provide persons with disabilities equal
opportunity to participate in and benefit from the One-Stop services afforded to persons
without disabilities. Except for veterans, for whom Federal law mandates priority of
services, the One-Stop System as a whole does not give preference to serving any
particular group with specific services, and the Department has not established
quantifiable goals for serving persons with disabilities through the One-Stop System.
The Department is considering establishing quantitative performance measures to chart
the progress of the One-Stop System in providing comprehensive access to persons as
part of the FY 2010 Disability Employment Initiative.

CRC is responsible for administering and enforcing the non-discrimination and equal
opportunity provisions of WIA, including provisions designed to ensure that persons with
disabilities have equal opportunity to participate in and benefit from the aid, benefits,
training, and services afforded to those without disabilities. CRC assesses compliance
with Section 188 of WIA through several methods. The primary method is through
review of States’ “Methods of Administration” (MOA).

The MOA is a document that the WIA nondiscrimination regulations require each State
to develop and review every two years. The MOA must describe how the State will
ensure that its agencies and recipients of WIA financial assistance are complying with
the legal requirements set forth in WIA Section 188 and the WIA nondiscrimination
regulations, including the requirements related to disability. Where a revised MOA, or a
Governor’s certification that no revision is necessary, indicates possible noncompliance,
CRC investigates further, and works with the State until all identified violations have
been corrected. According to CRC officials, once the MOA is approved, CRC uses it as
a tool for monitoring compliance by the State and its recipients.

CRC stated it also conducts compliance reviews. Compliance reviews are investigations
focused on an entity’s, or specific entities’, compliance with particular equal opportunity
(EO) obligations. Such a review may be prompted by the filing of a complaint, or the
receipt of other reliable information that indicates the possibility of a violation, as well as
by information obtained during an MOA review. Alternatively, CRC may initiate a
compliance review as part of an overall compliance monitoring plan or an agency
initiative regarding a particular issue, such as disability or limited English proficiency.
Depending on the circumstances, a compliance review may or may not include on-site
visits.

CRC stated it relies on State and local workforce area Equal Opportunity Officers to
conduct technical on-site assessments of recipients’ compliance with physical
accessibility obligations, including the obligations to provide both architectural and
programmatic accessibility. Under architectural accessibility requirements, recipients
must construct covered facilities, or portions of facilities, to comply with specific
technical standards, similar to building codes, that have been developed by the U.S.
Access Board and adopted by the General Services Administration (GSA). Program, or
                                                        Ensuring Access to WIA One-Stop System
                                              3                     Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General

programmatic accessibility, by contrast, generally does not require compliance with a
specific set of technical standards. Rather, it permits a more flexible approach, under
which a recipient may take various common-sense steps to ensure that the physical
aspects of each covered program or activity are “readily accessible to” persons with
disabilities “when each part is viewed in its entirety.” Such common-sense steps
include “redesign of equipment, reassignment of classes or other services to accessible
buildings, assignment of aides to beneficiaries, home visits, delivery of services at
alternate accessible sites, alteration of existing facilities and construction of new
facilities ... or any other method that results in making [a recipient’s] program or activity
accessible to” persons with disabilities.

CRC said it also relies on ETA Federal Project Officers (FPO) to monitor WIA recipients’
compliance with WIA Section 188. According to ETA, during on-site monitoring, FPOs
use a Core Monitoring Guide, which requires documenting whether or not the WIA
recipient has policies and procedures in place to ensure compliance with Section 188.
With regard to all other aspects of compliance with nondiscrimination requirements,
including those related to disability, CRC said that it provides Federal-level oversight.

CRC also receives and processes complaints alleging violations of WIA Section 188
and its implementing regulations, including the disability-related provisions. CRC
reported that it accepted 28 disability-related complaints for investigation during the
period 2003 to 2009.

The information the Department has on the characteristics and needs of WIA
participants with disabilities is limited. The characteristics reported indicate whether a
participant has a disability but currently no information is collected on the nature of the
disability. Additionally, ETA and ODEP indicated that many participants may not self-
disclose their disabilities and as a result, the number of participants with disabilities is
likely under-reported. An ongoing evaluation of the Disability Program Navigators (DPN)
initiative, a planned revised reporting system, and the FY 2010 Disability Employment
Initiative may provide better information on needs and characteristics in the future.

ETA indicated that overall, persons with disabilities who participate in WIA Adult,
Dislocated Workers, and Youth Programs receive the same basic services — such as
job search, case management and occupational skills training — as those without
disabilities. In the Adult and Dislocated Worker programs, the PY 2008 rate of
participation of persons with disabilities in WIA services varied compared with all WIA
participants. In contrast to the WIA Adult and Dislocated Workers programs,
PY 2008 data for youth with disabilities indicated that they participated in WIA services
as much or more than all youth participants.

In the adult and dislocated worker programs, the core indicators of performance are the
entered unsubsidized employment rate, retention in unsubsidized employment 6 months
after entry, and earnings in unsubsidized employment 6 months after entry into
employment. The core indicators of performance for youth include, among other
measures, the entered unsubsidized employment rate, credential rate, skill attainment
rate, and diploma attainment rate. Program exiters with disabilities generally had lower
                                                       Ensuring Access to WIA One-Stop System
                                              4                    Report No. 25-10-001-03-390
                                          U. S. Department of Labor – Office of Inspector General

entered employment rates compared to all exiters. For example, WIA Adult exiters with
disabilities had a 53.4 percent entered employment rate compared to 68.1 percent for
all exiters. However, the employment retention rate for WIA Adult exiters with disabilities
was about the same as the retention rate achieved by all exiters. Another indicator of the
outcome of DOL’s efforts to serve participants with disabilities is data from the DPN initiative.
ETA reported that for Program Years 2006 through 2007, the entered employment rate
for local Workforce Investment Boards with a DPN was 65 percent compared to 56
percent to those without a DPN. Additionally, the retention rate was nearly identical —
79 percent for WIBs with the DPN and 80 percent for those without.

Since 2003, the Department has conducted several independent evaluations of its
initiatives to improve One-Stop services for people with disabilities, including
evaluations of the Disability Program Navigator initiative and various ODEP
demonstration projects. Ongoing or planned assessments of how the One-Stop System
provides access and services to persons with disabilities include an evaluation of the
Disability Employment Initiative, and a review of strategies used by States that serve a
high percentage of youth with disabilities while meeting their performance goals. ODEP
also plans to evaluate its technical assistance centers and conduct a survey to assess
One-Stop programmatic and physical accessibility.

RESULTS

1.     What are the Department’s goals for serving persons with disabilities?

There do not appear to be quantifiable goals or performance measures that assess
DOL’s progress in achieving its statutory responsibility to ensure comprehensive access
for persons with disabilities. Under a joint $24 million initiative launched in FY 2010,
ETA and ODEP advised they will develop performance measures for state grantees that
could potentially include information to assess the Department’s progress in this area.

Although the Department does not have quantifiable goals for serving persons with
disabilities through the One-Stop system, it has statutory responsibilities to ensure that
recipients of WIA financial assistance provide persons with disabilities equal opportunity
to participate in and benefit from the services afforded to persons without disabilities.
The Department’s Civil Rights Center, located in the Office of the Assistant Secretary
for Administration and Management, enforces Federal statutes and regulations that
require the One-Stop system to provide such equal opportunity. CRC’s primary method
for monitoring compliance is its reviews of each State’s Methods of Administration. An
MOA contains the State’s plan for ensuring that it and its recipients will comply with
these disability-related requirements, as well as other, more general Federal
requirements related to equal opportunity and nondiscrimination. CRC also conducts
compliance reviews at the State, local, and One-Stop Center/service provider levels,
and investigates complaints of alleged violations of civil rights-related legal
requirements in One-Stop programs, including disability-related complaints.




                                                            Ensuring Access to WIA One-Stop System
                                                 5                      Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General

Goals

The Department does not have quantitative goals related to serving persons with
disabilities in the WIA One-Stop System. ETA explained that the purpose of the WIA
One-Stop System is to provide “universal” access to Federally-funded workforce
services for all people. Except for veterans — for whom Federal law mandates priority
of services — the One-Stop System as a whole does not give preference to serving any
particular groups with specific services. Accordingly, ETA’s mission is to provide the
same services to all targeted groups — populations that may face multiple barriers to
employment. Persons with disabilities are one of these groups — along with others such
as TANF recipients and older workers.

ETA stated that its goal for providing comprehensive access to the One-Stop System for
persons with disabilities is to have a system that provides integrated, meaningful, and
effective participation in all programs and activities for persons with a range of
disabilities. ETA indicated that it uses the WIA performance measures and compiles
qualitative and quantitative information from Disability Program Navigators (DPN),
stakeholders, etc., to measure progress toward improving access to the One-Stop
System. ETA stated that it has not conducted any risk assessments to identify factors
that could limit accessibility of One-Stop services to people with disabilities.

The Office of Disability Employment Policy is the only DOL agency with explicit
performance goals related to promoting training and employment for people with
disabilities. ODEP’s role is focused mainly on developing policies and resources that the
Department can implement and disseminate within the public workforce investment
system. According to DOL’s FY 2009 Performance and Accountability Report, ODEP
achieved its quantitative output goals related to the number of policy-related documents,
formal agreements and effective practices issued. Since ODEP was established by
Congress in FY 2001, the agency has funded numerous demonstration projects to
increase training and employment opportunities for persons with disabilities. See
Chapter 5 for more information on ODEP’s projects and related evaluations.

In December 2004, GAO issued a report entitled “Workforce Investment Act: Labor Has
Taken Several Actions to Facilitate Access to One-Stops for Persons with Disabilities,
but These Efforts May Not Be Sufficient.” GAO recommended that DOL develop and
implement a long-term plan for ensuring that the One-Stops comply with the
comprehensive access requirements. In March 2005, DOL responded to GAO and
indicated that ETA, CRC and ODEP would work together to develop a comprehensive,
long-term strategic plan to address the One-Stop’s system’s provision of services to
people with disabilities. The response also indicated that DOL would begin by
developing a framework for the plan. This framework, finalized and approved on
October 1, 2008, set forth two overarching goals to promote the creation of a public
workforce system that is fully inclusive of and able to effectively serve and meet the
needs of people with disabilities:




                                                     Ensuring Access to WIA One-Stop System
                                            6                    Report No. 25-10-001-03-390
                                               U. S. Department of Labor – Office of Inspector General


    1. Excellence in Service Delivery — Promote excellence in service delivery for
       persons with disabilities in the workforce investment system.

    2. Promote Compliance — Develop and implement a long range, coordinated plan
       for oversight and enforcement of disability-related statutes and regulations, and
       build the system’s capacity to comply with those rules.

See Appendix H for a copy of the framework developed in response to the December
2004 GAO report.

Department-wide strategic planning efforts, as well as the Disability Employment
Initiative that Congress included in DOL’s FY 2010 budget, suggest the Department
may consider performance measures to chart progress in providing comprehensive
access to the One-Stop System for persons with disabilities in the future.

For example, according to Department officials, for FY 2011 and beyond, ODEP has
proposed a new model to measure its performance. This model uses “short-term
(output), intermediate, long-term, and strategic measures” that will help ODEP to
measure its impact on improving the accessibility of the WIA One-Stop System for
persons with disabilities and their outcomes upon program exit.1

                                  Office of Disability Employment Policy
                           Short-term
                                                                                             ODEP Outcome
     Measures               (Output)              Intermediate            Long-Term
                                                                                             / Strategic Goal
                           Measures
                        Formal                 Increase the            Increase the          Increase the labor
                        Agreements             number of people        number of people      market
                        Effective Practices    with disabilities       with disabilities     participation rate
                        Policy Outputs         served by the One       exiting the One       and earnings for
    Explanations                               Stop Career             Stop Career           people with
                                               Centers.                Centers               disabilities
                                                                       employed at
                                                                       minimum wage or
                                                                       better.

ETA and ODEP have also entered into a Memorandum of Agreement2 to define the
roles and responsibilities of the two agencies for the development and implementation
of the joint Disability Employment Initiative. The purpose of this $24 million initiative is
to continue what ETA determined to be the promising practices implemented by DPN
and build effective community partnerships that leverage public and private resources to
better serve individuals with disabilities and improve employment outcomes. The
agreement states that ETA and ODEP will establish performance measures for state
grantees and objectives.

1
  Information on ODEP was provided in an email from the Director, Center for Program and Performance Results, to
OIG on January 15, 2010.
2
  ETA officials state that the Memorandum of Agreement and the Report to Congress have subsequently been
submitted to Congress.
                                                                   Ensuring Access to WIA One-Stop System
                                                        7                      Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General

In a draft copy of the implementation plan for the initiative, ETA and ODEP cited some
possible measures to assess the success of the effort of the state grantees.

Participant Outcome Measures:
   •	Customer satisfaction
   •		 Improvements in employment rate
   •		 Improvements in employment retention rate
   •		 Improvements in wages
   •		 Improvements in enrollment in postsecondary education, including registered
       apprenticeship and other training through WIA

Workforce Development System Outcome Measures:
  •	Improved Capacity
  •	Increased Coordination
  •		 Improved Quality of Services (Customization, Consumer Choice, Support
      Services, and Employer Supports)
  •	Adaptation and Evaluation of Effective Practices
  •		 Dissemination of Effective Practices
  •	Sustainability

Assessing Compliance with Comprehensive Access Requirements

Although the Department does not have quantifiable goals for serving persons with
disabilities through the One-Stop system, it has statutory responsibilities to ensure that
recipients of WIA financial assistance provide persons with disabilities equal opportunity
to participate in and benefit from the One-Stop services afforded to persons without
disabilities. Section 188 of WIA, 29 U.S.C. 2938 (WIA Section 188), prohibits
discrimination on the grounds of race, color, religion, sex, national origin, age, disability,
political affiliation or belief, and for beneficiaries only, citizenship or participation in a
WIA Title I-financially assisted program or activity. Federal regulations to implement
WIA Section 1883 include provisions requiring that recipients of Federal financial
assistance must ensure both that their facilities comply with applicable standards for
architectural accessibility, and that their programs and activities comply with program
accessibility requirements. The regulations also require recipients to take additional
positive actions to ensure equal opportunity for persons with disabilities, such as
providing reasonable accommodations and modifications, ensuring equally effective
communications, and providing services and information in the most integrated setting
appropriate to the needs of persons with disabilities.

Under Federal regulations, the Department of Labor’s Civil Rights Center is responsible
for administering and enforcing WIA Section 188, which contains the non-discrimination
and equal opportunity provisions of WIA, and the regulations enforcing implementation
of that section, published at 29 CFR part 37. CRC is also responsible for developing
and issuing policies, standards, guidance, and procedures for affecting compliance with
WIA Section 188 and 29 CFR Part 37. CRC’s jurisdiction covers all programs and
3
    See 29 CFR Part 37.
                                                        Ensuring Access to WIA One-Stop System
                                              8                     Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General

activities offered by the One-Stop partners listed in Section 121(b) of WIA, including
programs and activities whose primary source of financial assistance is another Federal
Department or agency — such as the Department of Education or the Department of
Housing and Urban Development.

CRC assesses compliance with WIA Section 188 primarily through biennial reviews of
each State’s “Methods of Administration.” It also conducts compliance reviews and
investigates complaints. The number and type of disability-related complaints CRC
processes could be one indicator of how well One-Stops are providing comprehensive
access.

Methods of Administration (MOA)

Each State’s Governor must develop an MOA, submit it to CRC for review, and conduct
a biennial review of the document to determine whether any changes are necessary.
The MOA describes how the State ensures that its own agencies and its recipients of
WIA financial assistance — including One-Stop Career Centers — will comply with the
nondiscrimination and equal opportunity requirements of WIA Section 188 and 29 CFR
part 37, including the requirements related disability. The MOA must include a
description of how the State will assure that covered recipients comply with specific
disability-related requirements. At a minimum, the State must describe how it will
ensure that recipients:

   •		 meet their obligation not to discriminate on the basis of disability;

   •		 provide reasonable accommodation and reasonable modification of policies,
       practices and procedures for individuals with disabilities;

   •		 provide architectural accessibility for individuals with disabilities;

   •		 administer WIA Title I financially-assisted programs and activities so persons with
       disabilities participate in the most integrated setting appropriate to that individual;

   •		 communicate with persons with disabilities as effectively as with others;

   •	provide   programmatic accessibility for persons with disabilities;

   •		 provide for and adhere to a schedule to evaluate qualifications for employment
       with the recipient, and for participation in the programs and activities offered by
       the recipient, to ensure that the qualifications do not discriminate on the basis of
       disability;

   •		 limit medical and disability-related inquiries to those permitted by, and in
       accordance with, applicable law; and



                                                         Ensuring Access to WIA One-Stop System
                                               9                     Report No. 25-10-001-03-390
                                        U. S. Department of Labor – Office of Inspector General

    •		 ensure the confidentiality of all medical and disability-related information about
        individual customers, applicants, and employees.

CRC reviews and approves each State’s MOA, and to the extent the document
indicates a deficiency in a State’s equal opportunity-related policies, practices, and
procedures, works with the State to help bring it into compliance. The MOA becomes
part of the WIA State Plan which is submitted to and approved by ETA.

The Department of Labor, States, and local workforce areas have responsibilities for
ensuring that covered recipients are complying with the applicable requirements related
to nondiscrimination and equal opportunity. The regulations implementing WIA Section
188 require that States and local workforce areas assign Equal Opportunity Officers
(EOO) who are responsible for “[m]onitoring and investigating ... to make sure that the
recipient and its subrecipients are not violating their nondiscrimination and equal
opportunity obligations.”5

See the table below for a summary of the oversight responsibilities of various entities.




5
 See Section 37.25(b) of 29 CFR Part 37, IMPLEMENTATION OF THE NONDISCRIMINATION AND EQUAL
OPPORTUNITY PROVISIONS OF THE WORKFORCE INVESTMENT ACT OF 1998 (WIA).


                                                         Ensuring Access to WIA One-Stop System
                                              10                     Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General

  Federal, State, and Local Responsibilities for Ensuring Equal Opportunity for
                Persons with Disabilities in the One-Stop System

                              US Department of Labor
Civil Rights Center                    Employment and Training Administration
Conducts biennial review of Methods of During monitoring visits, ETA states that its
Administration (submitted by States)   Regional Office Federal Project Officers
                                       document whether or not recipients have
                                       policies and procedures in place to monitor
                                       their compliance with WIA Section 188
                                       requirements.



Investigates complaints of alleged
violations of WIA Section 188 and 29
CFR Part 37
Conducts compliance reviews (reviews
focused on an entity’s, or specific
entities’, compliance with their equal
opportunity [EO] obligations)

                          State- and Local-Level Agencies
Office of the Governor                    State Workforce Agencies and Local
                                          Workforce Boards
Oversees all WIA Title I-financially      Equal Opportunity (EO) Officers monitor
assisted programs to ensure               compliance with WIA Section 188 and 29
compliance with legal requirements        CFR Part 37 by covered entities within their
related to nondiscrimination and equal    jurisdiction, and ensure that any violations –
opportunity                               including violations of the disability-related
                                          requirements – are remedied. CRC relies on
Ensures that recipients:                  States’ and local areas’ EO Officers, as well
• collect and maintain required records   as ETA’s FPOs, to conduct any on-site
• are able to provide required data and   reviews of compliance with physical
reports to CRC                            accessibility requirements that are
                                          appropriate.
Negotiates to obtain compliance by
recipients found in violation

When WIA first went into effect:

Developed initial Methods of
Administration (plan for ensuring
compliance with legal requirements re:
nondiscrimination and equal
opportunity)
                                                     Ensuring Access to WIA One-Stop System
                                           11                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General


Submitted MOA to Civil Rights Center
for review

Every two years:

• reviews the MOA and determines
whether changes are necessary for the
State to remain in compliance

• submits either a revised MOA, or a
certification that no changes are
necessary, to CRC

• works with CRC to remedy violations
disclosed by MOA review


To help EO Officers and their staffs reach and maintain a necessary level of
competency, CRC conducts an annual National Equal Opportunity Professional
Development Forum. The Forum provides the EO Officers and other interested
stakeholders with training on various nondiscrimination topics, including topics related to
disability. In addition, several times a year, CRC has provided on-site training on EO-
related matters, including disability related topics, at various locations throughout the
country, usually when requested to do so by a State-level recipient or regional group of
recipients. CRC has recently provided such training via distance-learning methods,
typically by webinar. Upon request, CRC staff members also provide one-on-one
technical assistance, including assistance on disability-related matters, to large and
small recipients at various levels of the One-Stop System.

Complaint Processing

CRC is responsible for processing complaints alleging violations of WIA Section 188
and its implementing regulations, including the disability-related provisions. CRC’s
complaint procedure includes the opportunity for the complainant and respondent to
mediate. Where mediation is declined or fails, CRC conducts an investigation and,
where discrimination is found, attempts to obtain voluntary compliance. Where those
efforts fail, the recipient/respondent is given notice and the opportunity for a hearing
before sanctions are imposed.

Between 2003 and 2009, CRC accepted 28 disability-related complaints for
investigation. The following chart summarizes the disability-related complaints:




                                                       Ensuring Access to WIA One-Stop System
                                             12                    Report No. 25-10-001-03-390
                                                U. S. Department of Labor – Office of Inspector General




Number of Disability-Related Complaints Accepted by the Civil Rights Center for Investigation
                  from FY 03 to FY 09, By Complaint Category and Region

                                                                   # of Individuals by Region
 Yr        Complaint Category (Issues)                1        2      3      4    5    6        Total
        Benefits; Enrollment; Training;                                                1         1
        Training; med. exam before training;          1                                          1
FY03    Access/Accommodation;                                                1                   1
        Promotion;                                             1                                 1
        Discipline; Harassment;                       1                                          1
        Access/Accommodation; Benefits;
        Enrollment; Harassment; Intimidation;
        Job Classification; Performance;
        Qualification/Testing; Seniority; Training;
        Transition; Wages;                                                   1                   1
        Access/Accommodation; Exclusion;
        Training;                                                                      1         1
FY04    Access/Accommodation; Harassment;                                              1         1
        Access/Accommodation; Benefits;
        Harassment;                                                          1                   1
        Access/Accommodation; Harassment;                                    1                   1
        Benefits; Discipline; Harassment;
        Performance; Termination; Training;                                       1              1
        Access/Accommodation;                                         1                          1
        Discipline; Performance;                                             1                   1
        Benefits;                                                                      1         1
        Access/Accommodation; Benefits;
FY05
        Harassment;                                                          1                   1
        Access/Accommodation; Training;                                           1              1
        Access/Accommodation; Benefits;                                           1              1
FY06    Access/Accommodation; Intimidation;
        Other; separation from other participants;                                1              1
        Access/Accommodation; Benefits;               1                                          1
FY07
        Benefits;                                     1                                          1
        Benefits;                                                     1                          1
FY08
        Termination;                                                  1           1              2
        Access/Accommodation;                                                1                   1
        Access/Accommodation; Enrollment;                                              1         1
FY09    Access/Accommodation; Promotion;                                               1         1
        Benefits;                                     1                                          1
        Termination;                                                  1                          1
                  Grand Total                       5     1      4     7      5     6      28
Note that CRC does not maintain complaint information by Adult, Youth or Dislocated Worker
Programs
Source: Table was provided by CRC, January 22, 2010




                                                                          Ensuring Access to WIA One-Stop System
                                                          13                          Report No. 25-10-001-03-390
                                                 U. S. Department of Labor – Office of Inspector General


The above chart shows only those disability-related complaints filed directly with CRC
that the agency accepted for investigation. According to CRC, a complainant can either
file a complaint directly with CRC or with the recipient-level entity designated by the
Governor in the MOA. States determine where people can file these complaints, and,
because the One-Stop system is decentralized, each state handles this differently.

The WIA nondiscrimination regulations require recipients to maintain logs of the
complaints that they receive and that allege discrimination on one or more of the bases
prohibited by WIA Section 188. See 29 CFR 37.37(c). Recipients must submit those
logs to CRC upon request. The logs must include information about the alleged basis
for the discrimination (such as race, sex, or disability); a description of the complaint;
the date the complaint was filed; the disposition and date of disposition of the complaint;
and other pertinent information. CRC stated that in recent years, it has issued such
requests on approximately an annual basis. Additionally, CRC has the authority to
require recipients to provide other information about their complaint processing
procedures overall, as well as their processing of specific complaints.

ETA’s Role in Assuring Comprehensive Access

ETA’s Regional Offices are also involved in making sure that local workforce areas are
providing comprehensive access to the One-Stop System. ETA’s Regional Federal
Project Officers (FPOs) use a Core Monitoring Guide when conducting project site
visits. The Core Monitoring Guide includes questions about accessibility for persons
with disabilities and other questions pertaining to strategies to recruit and serve
participants who meet the target group criteria identified in the grants. The Core
Monitoring Guide states that “all findings and observations” related to compliance with
applicable Federal civil rights laws (including those prohibiting discrimination against
persons with disabilities) “need to be shared with the Civil Rights Center.”

ETA has also worked toward increasing comprehensive access to the One-Stop System
for persons with disabilities through the DPN initiative. Between 2003 and 2008, the
Department of Labor and the Social Security Administration jointly provided $137 million
to 42 states, the District of Columbia, Puerto Rico, Guam, and the U.S. Virgin Islands to
support more than 425 Disability Program Navigators for the One-Stop System.7 These
cooperative agreements allowed States to establish a DPN position in local workforce
investment areas to improve access to WIA workforce training, employment, and related
services for jobseekers with disabilities.

ETA officials believe there has been progress toward increasing comprehensive access
to the One-Stop System for persons with disabilities since Congress passed WIA in
7
  ETA said that the DPN grants were awarded non-competitively via an invitation that went out to State WIBs and/or
state DOL agencies (the state WIA-administering entity) in selected states asking them to respond to a Solicitation for
a Cooperative Agreement proposal. ETA said that over four rounds of grants, all states and territories had been
invited to apply for a DPN grant. According to ETA, the first round of states, which SSA jointly funds, were those that
had demonstration projects with SSA or were phase One Ticket-to-Work implementation states. ETA said that the
cooperative agreement mechanism allowed the ETA National DPN Program Office to provide more technical
assistance to the grantees.
                                                                       Ensuring Access to WIA One-Stop System
                                                         14                        Report No. 25-10-001-03-390
                                               U. S. Department of Labor – Office of Inspector General

1998. ETA cites both requirements in the DPN application process and annual
modification instructions and various on-site reviews to support this view.

According to ETA, annual modification instructions to existing grantees and applicants
for new DPN funds were required to provide a comprehensive action plan that
addressed the following: compliance with specific legal requirements related to
architectural and programmatic accessibility of One-Stop Career Centers; provisions of
equally-effective communication for and with individuals with disabilities; provision of
reasonable accommodations and modifications; and general nondiscrimination and
equal opportunity for individuals with disabilities. ETA also required applicants for DPN
funds to confirm that all One-Stop Career Centers in the state complied fully with the
applicable requirements related to architectural accessibility8, and provide plans for
corrective action, if needed. According to ETA, Equal Employment Opportunity staff
conducts reviews of accessibility regularly using the WIA Section 188 Checklist. The
“checklist,” developed jointly by CRC, ODEP, and ETA, is based on the elements of the
Methods of Administration, and can be located online at
http://www.dol.gov/oasam/programs/crc/section188.htm.




8
    As stated in 29 CFR 32.26 through 32.28.
                                                               Ensuring Access to WIA One-Stop System
                                                     15                    Report No. 25-10-001-03-390
                                                U. S. Department of Labor – Office of Inspector General

2. 	    What information does the Department have regarding the characteristics
        and needs of persons with disabilities?

The Department’s primary sources of information regarding the characteristics and
needs of job seekers with disabilities are the Workforce Investment Act Standardized
Record Data (WIASRD) reported by the States, information contained in WIA State
Plans, and information from Disability Program Navigator activities. This information is
limited because disclosure of a disability is voluntary. ETA and ODEP stated that many
participants with a disability may not self-disclose, and as a result, the number of
participants with disabilities is likely under-reported. Characteristics reported through
WIASRD indicate whether a participant has a disability but no information is collected
on the nature of the disability. Characteristics that are captured for participants with
disabilities provide the same demographic information that is collected for all
participants. Information on characteristics and needs of participants with disabilities
may also be found in the WIA State Plans that all states must submit to DOL. However,
that information is not readily accessible and would require a review of each State plan
to extract it. We did not do this. Additional information on needs of participants with
disabilities was identified in various research cited by ETA and ODEP. The Department
may collect additional disability-related information in the future, through a planned
revised performance reporting system and the FY 2010 Disability Employment Initiative
to be jointly administered by ETA and ODEP.

Current and reliable information on the characteristics and needs of persons with
disabilities who are potential customers of the Workforce Investment Act (WIA) One-
Stop System may serve two purposes. First, it helps the Department of Labor, States
and local workforce areas to track use of the WIA system by this population and to
ensure they have equitable access to services. Second, States and local workforce
agencies can use the information to plan training and related services most appropriate
to helping persons with disabilities obtain and retain employment.

Characteristics

The Workforce Investment Act of 1998 requires that all recipients of WIA funds collect
and report information on characteristics of WIA participants. Under WIA Title I B, WIA
recipients must maintain individual records showing characteristics, services received,
and outcomes for persons who receive WIA services. Recipients, including States,
report these data on WIA exiters9 to ETA through the Workforce Investment Act
Standardized Record Data system. The data available about the characteristics of WIA
exiters with disabilities is the same as that for all WIA exiters. Examples of these
characteristics are: age, gender, race and ethnicity, veteran status, Unemployment
Insurance status, educational attainment, employment status, low-income, homeless,
offender, and receipt of public assistance. In the WIA Youth program, there are
additional characteristics — such as pregnant or parenting teen and foster youth.

9
 By definition, a WIA exiter is a participant that does not receive a service funded by the program or funded by a
partner program for 90 consecutive calendar days and is not scheduled for future services. U.S Department of Labor.
Employment and Training Administration. Training and Employment Guidance Letter 17-05.

                                                                    Ensuring Access to WIA One-Stop System
                                                        16                      Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


WIASRD shows the number of WIA exiters, by program, who report they have a
disability, but does not provide information on the nature of the disability. Both ETA and
ODEP emphasized that disclosure of a disability is voluntary. They stated that many
participants with a disability do not self-disclose and, as a result, the number of
participants with disabilities is under-reported.

In PY 2008, ETA reported that 57,824 or 4.7 percent of the 1,234,178 WIA exiters had a
disability. This is a decline since PY 2003, when 8.3 percent of the WIA exiters were
persons with disabilities.

OIG asked ETA about the significant increase in all WIA exiters — especially in the WIA
Adult program, ETA noted that more states are co-enrolling Wagner-Peyser
(Employment Service) registrants together with WIA exiters, and this may explain the
dramatic increase in the number of WIA exiters. Consequently, the increase in co-
enrollment has also reduced the percentage of people with disabilities served.

OIG used data from the published WIASRD Data Book for PYs 2003 and 2008 for this
review. The following charts present information on characteristics of WIA exiters with
disabilities, as well as information on characteristics of all WIA exiters, for the Adult,
Dislocated Worker and Youth programs.




                                                       Ensuring Access to WIA One-Stop System
                                            17                     Report No. 25-10-001-03-390
                                                   U. S. Department of Labor – Office of Inspector General




                       Selected Characteristics of Adult Exiters (unaudited)

                                                   PY 2008                           PY 2003


                                       Exiters With                      Exiters With
               Adult                                     All Exiters                       All Exiters
                                       a Disability                      a Disability


 Number of Exiters
                                          33,890             849,738        14,056             219,979
   Statewide Programs
                                           728               13,787          3,254             25,904
   Local Programs
                                          33,220             838,691        10,904             195,463
 Characteristics of All Exiters:
 Age categories
  18 to 21                                 5.9%               9.6%          9.7%               12.1%
  22 to 29                                17.1%              25.0%          18.7%              27.5%
  30 to 44                                33.3%              34.6%          41.2%              38.8%
  45 to 54                                26.5%              19.8%          22.3%              15.7%
  55 and over                             17.2%              10.9%           8.1%               6.0%
 Gender
  Female                                  42.8%              46.6%          45.9%              55.7%
  Male                                    57.2%              53.4%          54.1%              44.3%
 Race and Ethnicity
  Black                                   25.3%              27.4%          30.5%              31.0%
  Hispanic                                10.6%              12.4%          13.2%              18.2%
  White                                   58.5%              54.4%          50.6%              44.5%
  Other                                    5.6%               5.8%           5.5%               6.2%
 Employed at Participation
  Employed                                12.2%              17.2%          12.7%              20.5%
  Not Employed                            87.8%              82.8%          87.3%              79.5%
 Characteristics of Exiters who
 Received Intensive or Training
 Services
 Low Income                               53.1%              44.1%          79.0%              68.3%
 Public Assistance Recipient              24.7%              16.4%          22.4%              12.8%
  TANF Recipient                           3.6%               3.6%           7.3%               8.0%
  Other Public Assistance                 23.4%              15.4%          16.4%               5.6%
 Homeless                                  3.0%               1.2%            NA                 NA
 Offender                                  8.1%               5.7%            NA                 NA
 Highest Grade Completed
  Less than High School                   14.5%              13.5%          19.7%               2.9%
  High School Equivalent                  46.3%              50.8%          50.3%              54.4%
  Post High School                        39.2%              35.6%          29.9%              28.1%



Sources: U.S. Department of Labor, PY 2008 WIASRD Data Book Tables II-5 and II-6; PY 2003 WIASRD Data
Book Table II-4



                                                                       Ensuring Access to WIA One-Stop System
                                                          18                       Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General




                Selected Characteristics of Dislocated Worker Exiters (unaudited)


                                                  PY 2008                            PY 2003

                                       Exiters With                      Exiters With
       Dislocated Workers                                All Exiters                       All Exiters
                                       a Disability                      a Disability
 Number of Exiters                        9,185             293,614          6,972             187,664

   Statewide Programs                      416              13,380           1,007             23,034

   Local Programs                         8,613             278,956          5,711             158,557

   National Emergency Grants               619               924              861              28693

 Characteristics of All Exiters:
 Age categories
  Under 22                                 2.5%              3.3%             2.7%              2.40%
  22 to 29                                12.8%             16.9%            10.0%               14%
  30 to 44                                33.1%             36.6%            37.4%             43.70%
  45 to 54                                30.6%             26.4%            34.9%             28.80%
  55 and over                             20.9%             16.7%            15.0%             11.20%
 Gender
  Female                                  43.5%             49.0%            42.0%             49.40%
  Male                                    56.5%             51.0%            58.0%             50.60%
 Race and Ethnicity
  Black                                   26.1%             23.6%            16.0%             18.50%
  Hispanic                                10.2%             13.6%            10.2%             14.40%
  White                                   59.3%             55.8%            65.8%             60.30%
  Other                                    4.4%              7.0%             5.3%              6.80%
 Employed at Participation
  Employed                                 7.6%              4.5%             6.3%              7.30%
  Not Employed                            92.4%             95.5%            93.7%             92.70%
 Characteristics of Exiters who
 Received Intensive or Training
 Services
 Limited English Proficiency               4.3%              4.4%             3.4%              5.80%
 Single Parent                             9.1%             10.0%            10.2%             11.80%
 UI Status
   Claimant                               58.6%             68.6%            65.8%             71.50%
   Exhaustee                              20.5%             27.0%             8.7%              6.30%
 Highest Grade Completed
   Less than High School                  12.6%             12.1%             9.9%             10.0%
   High School Equivalent                 46.0%             48.7%            48.5%             49.2%
   Post High School                       41.4%             39.2%            41.6%             40.7%




Sources: U.S. Department of Labor, PY 2008 WIASRD Data Book Tables III-7 and III-8; PY 2003 WIASRD Data
Book Table III-5


                                                                       Ensuring Access to WIA One-Stop System
                                                          19                       Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General



                      Selected Characteristics of Youth Exiters (unaudited)

                                                  PY 2008                          PY 2003
                                      Exiters With                     Exiters With
              Youth                                     All Exiters                      All Exiters
                                      a Disability                     a Disability

 Number of Exiters
                                         15,729             115,083       26,266             166,831

   Statewide Programs
                                         1,455               9,966          791               4,832

   Local Programs
                                         14,648             109,933       25,887             164,376
 Characteristics of All Exiters:
 Age categories
              14 to 15                   14.9%              12.4%          29.6%             32.0%
              16 to 17                   47.6%              41.5%          44.0%             37.7%
                18                       21.5%              19.7%          14.1%             12.4%
              19- 21                     16.0%              26.3%          12.2%             17.9%
 Gender
              Female                     41.6%              55.6%          38.3%             52.5%
                Male                     58.4%              44.4%          61.7%             47.5%
 Race and Ethnicity
   Black                                 21.6%              33.0%          23.5%             36.0%
   Hispanic                              23.2%              32.3%          14.7%             28.5%
   White                                 50.9%              29.8%          57.4%             30.3%
   Other                                  4.3%               4.9%           4.4%              5.2%
 Employed at Participation
   Employed                               9.1%              10.2%           6.1%              5.8%
   Not Employed                          90.9%              89.8%          93.9%             94.2%
 Homeless or runaway youth                1.9%               2.7%           1.5%              2.3%
 Offender                                8.2%               7.7%           9.0%              8.3%
 Pregnant or parenting youth              4.1%              13.5%           3.4%             10.1%
 Basic literacy skills deficient         68.0%              57.3%          73.7%             65.1%
 Youth who needs additional
                                         66.5%              56.6%          63.3%             54.7%
 assistance
 Low Income                              94.9%              94.5%          93.4%             92.7%
 Highest Grade Completed
                                          10.1               10.4           9.6                9.7
 (average)
 Attending School                        75.7%              57.7%          81.7%             70.3%
 Not attending school                    24.3%              42.3%          18.3%             29.7%




Sources: U.S. Department of Labor, PY 2008 WIASRD Data Book Table IV-5; PY 2003 WIASRD Data Book Table
IV-4.




                                                                      Ensuring Access to WIA One-Stop System
                                                         20                       Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General

Following are some observations on the characteristics of participants with
disabilities:

   •		 In the WIA Adult Program, the percent of PY 08 exiters with a disability who were
       also offenders is higher than for all exiters (8.1% vs. 5.7%).

   •		 Compared to all exiters in the WIA Adult Program, exiters with disabilities had
       about the same percent who said they were homeless, but a higher percent who
       were on some type of public assistance (24.7% vs 16.4%).

   •		 Exiters with disabilities in the WIA Adult and Dislocated Workers Programs
       tended to be older (age 55 and above) than the population of all exiters (17.2%
       vs. 10.9% in the Adult Program, 20.9% vs. 16.7% in the Dislocated Workers
       Program).

   •		 A lower percent of exiters with disabilities had exhausted their Unemployment
       Insurance benefits at time of enrollment compared to all exiters in the WIA
       Dislocated Workers Program (20.5% vs. 27.0%).

   •		 Older youth (ages 19-21) with disabilities participated at a lower rate than all
       older youth (16.0% vs. 26.3%).

   •		 Less than half of all youth exiters with disabilities were Black and Hispanic, but
       nearly two-thirds of all WIA Youth Program exiters were Black and Hispanic.

   •		 While young women made up more than half of all exiters in the WIA Youth
       program, they were less than half of all youth exiters with disabilities.

   •		 There was a lower percentage of youth with disabilities who were a pregnant or
       parenting teen than youth exiters as a whole (4.1% vs. 13.5%).

   •		 The percent of low-income exiters with disabilities in the WIA Adult Program was
       lower in PY 2008 than in PY 2003 (53.1% vs. 79.0%).

   •		 The percent of older (ages 19-21) youth exiters with a disability was higher in
       PY 2008 than in PY 2003 (16.0% vs. 12.2%).

   •		 The percent of older exiters (55 years and above) with disabilities in the WIA
       Adult and Dislocated Worker Programs was higher in PY 2008 than in PY 2003
       (17.2% vs. 8.1% in the Adult Program, 20.9% vs 15.0% in the Dislocated
       Workers Program).

   •		 The percent of WIA Adult Program exiters with disabilities who were Black or
       Hispanic was lower in PY 2008 than in PY 2003 (25.3% vs. 30.5% for Black
       exiters, 10.6% vs. 13.2% for Hispanic exiters).


                                                       Ensuring Access to WIA One-Stop System
                                            21                     Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General

   •		 The percent of youth exiters with a disability who did not have a high school
       diploma or equivalency was higher in PY 2008 than in PY 2003 (12.6% vs.
       9.9%).

   •		 The percent of exiters with a disability in the WIA Youth and Dislocated Workers
       Program who were employed at participation was higher in PY 2008 than in PY
       2003 (9.1% vs. 6.1% for Youth, 7.6% vs. 6.3% for Dislocated Workers).

ETA and ODEP officials said they had not noticed significant changes since
PY 2005 in the characteristics of persons with disabilities who used the One-Stop
System. ODEP officials also said they have not researched the issue. ETA officials
acknowledged that the stress of unemployment increases the likelihood that latent
disability issues surface, or that new disabilities emerge.

ETA officials said they expect to see substantially more people with disabilities use the
One-Stop System due to the poor economy in recent years. ETA cited the large
incidence of disability among special populations with significant barriers to employment
(e.g., public assistance recipients, ex-offenders, and the homeless). ETA further
observed that the recession makes it less likely these individuals will be able to find and
keep jobs that offer economic self-sufficiency. Consequently, more persons with
disabilities will be in need of workforce training and employment services. ETA’s
observations are confirmed by December 2009 data from the Bureau of Labor Statistics,
which reported that the unemployment rate of persons with a disability was 13.8
percent, compared with 9.5 percent for persons with no disability, not seasonally
adjusted. ETA noted that that this unemployment rate does not take into account
working-age individuals with disabilities that have dropped out of the labor market; more
than 20 million working-age adults with disabilities are not counted in the labor force.

Information from WIA State Plans

Another potential source of information on the characteristics of persons with disabilities
is the 5-year plans that all States submit to the Department of Labor in order to receive
WIA formula funds. These plans are available on the DOL web site at:
http://www.doleta.gov/usworkforce/WIA/planstatus.cfm. ETA does not formally extract
and use the state-specific information. ETA explained that the States and local areas
use the information for planning and delivering their services.

The State plans should have this information because DOL guidance specifically asks
States to provide information about their plans to serve persons with disabilities. The
most recent guidance for the WIA State plans is contained in TEGL 14-08. The following
are examples of the information States must provide:




                                                      Ensuring Access to WIA One-Stop System
                                            22                    Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


   •		 Vision for ensuring that youth with disabilities have opportunities to develop and
       achieve their career goals (Question I.E.)

   •		 What approaches will be used to ensure funds are targeted to those most in
       need, including low-income, public assistance recipients, persons with
       disabilities, etc.?(Question IX.A.5.)

   •		 Service Delivery to Targeted Populations

      Describe the state’s strategies to ensure that the full range of employment and
      training programs and services delivered through the state’s One-Stop delivery
      system are accessible to and will meet the needs of …. people with disabilities.

      Indicate how the state will use Wagner-Peyser resources to support individuals
      with disabilities, such as funding disability program navigators in One-Stop
      Career Centers or assisting other targeted populations. (Question IX.C.4.a.)

We did not review all State plans; however, as an example, the Illinois 2007 State WIA
Plan describes an initiative to pilot test a “strategy for full inclusion of people with
disabilities in targeted sectors. The first sector to be developed is health care and it
provides for projects that incorporate people with disabilities into proven models for
training in health care occupations.”

States are also required to submit an annual report to ETA about their use of WIA
funds. This annual report includes ETA Form 9091, which provides information on
outcomes for special adult populations, including persons with disabilities. States often
describe in their annual reports initiatives they supported specifically targeted to
persons with disabilities and other special adult populations. For example, in its annual
WIA report for 2008, the State of Illinois reported actions it took to expand programs and
services to people with disabilities, such as:

   •		 compiling best practices for recruiting people with disabilities into targeted
       employment sectors,
   •		 collaborating with businesses to remove physical and attitudinal barriers to
       employment, and
   •		 connecting businesses and providers through disabilityworks, as well as to WIA
       services through the Illinois workNet portal.

ETA noted that these activities are from a DPN project in Illinois. ETA also said that
many states include a description of their DPN project activities in their Annual Reports.




                                                      Ensuring Access to WIA One-Stop System
                                            23                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General

OIG asked ETA if it collects and reviews additional information (in addition to WIASRD
information) regarding sectors of the economy that are likely to hire persons with
disabilities and what is known about employment histories of persons with disabilities.
ETA stated that it has not conducted a systematic study of these issues.

The Bureau of Labor Statistics (BLS) has collected some information on employment of
persons with disabilities by occupation and sector. For example, a November 2009 BLS
report, based on data from the Current Population Survey, shows that 12.8 percent of
persons with disabilities who were employed said they are self-employed in agriculture
and related industries. In non-agricultural industries, 6.5 percent of those with
disabilities described their situation as “unpaid family workers.” BLS does not publish
these data on its web site, but provides it to ODEP, which shares the information with
ETA.

Needs

Information on the needs of persons with disabilities in the WIA Adult and Dislocated
Workers program is limited. More may be known about the needs of participants in the
WIA Youth Program because WIA Section 129(c) (1) (A) requires that service providers
provide an objective assessment of the “academic levels, skill levels, and service needs
of each participant....” However, WIA regulations (Section 664.405) do not specifically
require an assessment to determine potential disabilities. According to ETA, each state
determines what to include in its assessment; some states may do an assessment for
disabilities, but it is not specifically required.

Additionally, ETA indicates that many young people who enroll in WIA youth programs
are referred by other agencies that work with at-risk youth — such as juvenile offenders,
homeless youth, or those with learning disabilities. Consequently, as part of the referral
process, these agencies may forward information about the young person’s situation —
age, education, type of disability, and assessment results. The latter might identify
education and career goals, and needs for support services or needs-based payments.

As previously noted, WIA State Plans may contain additional information on the needs
of persons with disabilities, but the Department does not compile these state-level data.
The data are only accessible by reviewing the individual state WIA plans. We did not
review all State plans; however, as an example, the California WIA State Plan cites the
“California Comprehensive Strategy for the Employment of People with Disabilities,”
another document which may have more specific information about the needs of
persons with disabilities that the state’s workforce programs should address.

Information from the Disability Program Navigator (DPN) Initiative

Between 2003 and 2008, the Department of Labor and the Social Security
Administration jointly provided $137 million (SSA provided $12 million) to establish
cooperative agreements with 47 states, the District of Columbia, Puerto Rico, Guam,



                                                     Ensuring Access to WIA One-Stop System
                                           24                    Report No. 25-10-001-03-390
                                                 U. S. Department of Labor – Office of Inspector General

and the U.S. Virgin Islands supporting more than 42510 Disability Program Navigators
for the One-Stop System.11 The “cooperative agreements” allowed States to establish a
DPN position at One-Stop Career Centers for an individual to help persons with
disabilities access WIA workforce training, employment, and related services. The
actual DPNs were employed by the state or local workforce system.

As the term “navigator” suggests, this individual’s main role was to help persons with
disabilities “chart a course” at the One-Stop Centers where multiple Federal partner
agencies (e.g., Department of Labor, Department of Education, Department of Housing
and Urban Development, and Social Security Administration) offer services that can
help individuals obtain and keep employment. Examples of the activities DPNs conduct
include training front-line staff at the One-Stop Centers; doing outreach to governmental
and non-governmental organizations that engage persons with disabilities; and building
linkages with employers. Overall, the DPN’s goal is to “work to improve coordination
across Federal, state, and local programs that impact the employability and career
advancement of job seekers with disabilities.” 12

A 2006 review of DPN activities in four states contained information about the needs of
persons with disabilities who use WIA One Stop Centers. Evaluators interviewed a total
of 16 participants in four states they visited. One of the questions the evaluators asked
the participants was what types of changes to the DPN program or One-Stop Center
would “increase meaningful participation in the workforce system?” The “customers’”
responses contain information that might suggest some of the needs that the WIA
system could better address. Examples of these “needs” are as follows:

     •		 Location — put centers in more accessible public places such as malls with
         signage and heightened visibility;

     •		 More community outreach — there should be more “marketing” to community
         agencies in the area the One-Stop or DPN serves. Examples of these groups
         include the school system, National Federation for the Blind, and agencies that
         serve youth with disabilities.


10
  ETA said that in PY 2008, there were 550 DPNs, but the number dropped to 425 in PY 2009 due to
reduced funding.
11
   ETA said that the DPN grants were awarded non-competitively via an invitation that went out to State WIBs and/or
state DOL agencies (the state WIA-administering entity) in selected states asking them to respond to a Solicitation for
a Cooperative Agreement proposal. ETA said that over four rounds of grants, all states and territories had been
invited to apply for a DPN grant. According to ETA, the first round of states, which SSA jointly funds, were those that
had demonstration projects with SSA or were phase One Ticket-toWork implementation states. ETA said that the
cooperative agreement mechanism allowed the ETA National DPN Program Office to provide more technical
assistance to the grantees. (See EWP H.4.1)
12
   U. S. Department of Labor. Employment and Training Administration Disability Program Navigator Cooperative
Agreement with the Social Security Administration to Enhance Service Delivery to Jobseekers with Disabilities
through the National One-Stop Career Center Delivery System Solicitation for Statewide Cooperative Agreement
Applications. SGA/DFA-08-01.


                                                                       Ensuring Access to WIA One-Stop System
                                                         25                        Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General

   •		 Internet — customers suggest it should be easier to locate One Stop Centers on
       the state web sites. Internet information should be specific — Who do they
       contact for information? How can they reach a DPN?

   •		 Communication — one suggestion was to have a “greeter” at the entry to the
       One-Stop to meet customers and direct them to the right person.

   •		 More direct communication between DPN and Customers — people with
       disabilities suggest the DPNs should offer more guidance and support about
       disclosing a disability and offer assessments to help the individual identify their
       skills and the type of jobs they are best suited for.

   •		 Assistance for hearing-impaired — One-Stop Centers should do more to
       accommodate those with hearing impairments and provide more resources and
       services for them.

Although most respondents said they did not experience discrimination in the
workplace, seven said they did, and four people discussed it with the DPN. One of the
frequently mentioned issues was “how, when, and how much” information to disclose
about one’s disability to an employer. Others reported that an employer had limited their
job opportunities or assignments rather than provide accommodation.

Supportive Services

Like other participants in One-Stop programs, persons with disabilities may require
additional supportive services and needs-based payments to help them participate in
employment and training programs. In PY 2008, ETA reported that of the 33,809
persons with disabilities who exited the WIA adult program, 7.5 percent received some
type of needs-based payments or other supportive services. Examples of supportive
services (as defined by WIA section 134 (e) (2)) include, but are not limited to:
transportation, child care, dependent care, and housing. ETA does not report data in
these specific categories, so it is not possible to determine which types of supportive
services WIA exiters with disabilities received.

Impact of WIA Program Participation on Disability Benefits

One of the challenges for persons with disabilities may be understanding how
participation in Federally-funded employment and training programs like those offered
through WIA could affect their cash and health benefits. As ETA noted in its 2008
solicitation for DPN funds, “Complex rules surrounding entitlement to Federal, state, and
local government programs designed to assist individuals with disabilities can make the
decision to seek employment even more difficult. Fear of losing cash and health
benefits is too often a determining factor for individuals with disabilities entering or
returning to the world of work, and maintaining employment.” The DPN initiative may
help persons with disabilities address these concerns. According to a DPN Fact Sheet,
Disability Program Navigators’ activities include guiding One-Stop Career Center staff in

                                                       Ensuring Access to WIA One-Stop System
                                            26                     Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General

helping people with disabilities “access and navigate the various programs that impact
their ability to gain/retain jobs.”

Although ETA has limited information on the needs of persons with disabilities, it does have
some information on needs-based payments and other supportive services. In PY 2008, ETA
reported that of the 33,809 persons with disabilities who exited the WIA Adult program,
7.5 percent received some type of needs-based payments or other supportive services.
Examples of these supportive services (as defined by WIA section 134(e) (2)) include, but are
not limited to, transportation, child care, dependent care, and housing. ETA does not report
data in these specific categories, so it is not possible to determine which types of supportive
services persons with disabilities used to participate in WIA programs.

Transportation Needs

ETA and ODEP officials cited research that suggests transportation service is a major
need for persons with disabilities. According to a National Council on Disability Report
(2005), “a national study conducted by the U.S. Bureau of Transportation Statistics in
2002 found that 6 million people with disabilities have difficulties obtaining the
transportation they need. Research in the year 2000 conducted by the Harris Poll and
funded by the National Organization on Disability established that nearly one-third of
people with disabilities report having inadequate access to transportation.”

One of the government-wide efforts to address the need for transportation is the United
We Ride (UWR) Program. According to ETA, there may be data in the Department of
Transportation’s database for State and local-level UWR programs showing how many
people with disabilities who use UWR transit services, but it would not identify WIA
participants specifically. In addition, ETA said that the Telephone Survey conducted by
the University of Iowa Law, Health Policy, and Disability Center, as part of its qualitative
evaluation of the DPN initiative, identified transportation as one of the most significant
barriers to accessing training and employment of people with disabilities.

Future Initiatives

The Department may obtain additional information on the characteristics and needs of
persons with disabilities as the result of the DPN evaluation, a revised reporting system,
and the joint ETA and ODEP Disability Employment Initiative.

ETA reported that it is in the process of conducting a quantitative evaluation involving
four DPN state grantees using Mathematica Policy Research, Inc. (MPR). MPR will
compare individualized WIA and Wagner-Peyser data on service levels and outcomes
for persons enrolled in DPN sites against Social Security Administration’s (SSA)
disability rolls. ETA expects to get the MPR report some time in April or May, and
stated the SSA data may provide more information on characteristics of participants
with disabilities, allowing for some analysis of trends.

ETA also may consider implementing a revised performance reporting system that
could provide additional information about the characteristics and needs of persons with
                                                       Ensuring Access to WIA One-Stop System
                                             27                    Report No. 25-10-001-03-390
                                        U. S. Department of Labor – Office of Inspector General

disabilities using the One-Stop System. Under a previous ETA proposal, persons who
self-identified as having a disability would have the option to provide additional
information on the type of disability they have. Specifically, an individual could
voluntarily disclose they had any of the following disabilities that substantially limited
one or more major life activities: learning disability, hearing impairment, visual
impairment, speech impairment, cognitive impairment, orthopedic impairment,
mental/emotional/ psychological impairment, drug addiction or alcoholism, or other
types of disability.

When ETA published its proposal in the Federal Register on July 16, 2004, ETA stated
it “believes that collection of types of disability will have practical utility for focusing on,
and evaluating the effectiveness of its programs in serving persons with a disability
through the One-Stop System.” For example, an individual who is hearing or speech-
impaired is likely to need assistive technology such as text telephone to communicate
with staff at the One-Stop center or a WIA service provider.

On March 16, 2009, ETA announced on its web site that implementation of the new
system — called Workforce Investment Streamlined Performance Reporting (WISPR)
— had been suspended because of the higher priority of working with the WIA system
to meet Recovery Act reporting requirements. According to ETA, the Department is
reassessing the implementation of WISPR pending reauthorization of WIA so as to not
overly burden the states with excessive reporting changes. The Department plans to
consult with the state workforce agencies about the revised performance accountability
framework.

Finally, the FY 2010 $24 million Disability Employment Initiative (DEI) jointly
administered by ETA and ODEP could provide more information on the characteristics
and needs of persons with disabilities. The purpose of the initiative is to build on
“lessons learned” from the Disability Program Navigator project and build the capacity of
the One-Stop System nationwide to better serve persons with disabilities. According to
a draft “implementation plan” that ETA provided to OIG, part of the evaluation of the DEI
will include demographic data from WIASRD on people served, broken down by youth
and adults, disability type, SSI/SSDI, and Vocational Rehabilitation (VR). The evaluation
may provide more information on the characteristics of persons with disabilities served
through the One-Stop System.




                                                          Ensuring Access to WIA One-Stop System
                                               28                     Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


3. 	   What types of services are persons with disabilities receiving from the
       One-Stop System?

Persons with disabilities who participate in WIA Adult, Dislocated Worker and
Youth Programs receive the same services as those without disabilities, although their
rates of participation in those services may vary. The Department’s most visible
initiative for helping people with disabilities access and navigate the One-Stop System
has been the Disability Program Navigator. According to ETA, the DPN initiative was
established in 14 states in 2003. By PY 2008, a total of 47 states, the District of
Columbia, Puerto Rico, Guam and the U.S. Virgin Islands had a DPN initiative. The
Department has also collected additional information on promoting increased access to
service for individuals with disabilities from ODEP studies and demonstration programs,
and an evaluation of the DPN initiative. Other initiatives to improve One-Stop services
for persons with disabilities are ongoing.

Services Received

The following services are provided in the WIA Adult and Dislocated Workers Programs:

       Core services — basic services such as job searches and labor market
       information. These activities may be self-service or require some staff
       assistance. WIA excludes job seekers who receive core services that are self-
       service and informational in nature from being included in the performance
       measures. However, the WIA nondiscrimination regulations require recipients to
       seek demographic information about such job seekers, including information
       about disability status, at the point when the job seekers provide personal
       information in response to a request from the recipient.

       Intensive services — activities such as comprehensive assessment and case
       management, or activities that require greater staff involvement.

       Training services — activities such as occupational skills or on-the-job training.

The next section highlights selected trends in services received by persons with
disabilities in the WIA Adult and Dislocated Workers Programs. See Exhibits 1 and 2 for
more detailed information.

As shown in the following table, there was a significant decrease in the percent of
exiters in the WIA Adult and Dislocated Workers Program who received training from
PYs 2003 to 2008.




                                                      Ensuring Access to WIA One-Stop System
                                            29                    Report No. 25-10-001-03-390
                                                     U. S. Department of Labor – Office of Inspector General

                WIA Adult and Dislocated Workers Who Received Training
                                       (unaudited)
                                   PY 2003                 PY 2008
                                       Received                Received
                           Total       Training    Total       Training
             Program       Exiters     Services    Exiters     Services
             Adult         219,979     46.8%       849,738     11.6%
             Dislocated    187,664     54.6%       293,614     18.7%
             Workers

            Source: U.S. Department of Labor. Employment and Training Administration.
            PY 2003 WIASRD Data Book, II-16; III-17. PY 2008 WIASRD Data Book, Tables II-19; III-22.


WIA Adult Program

The chart below shows that persons with disabilities participated at a slightly
lower rate (9 percent) in training services than all exiters (11.6 percent).


             Services Received in PY 08 - Adult Program (unaudited)



                                       11.6%
     Training Services
                                   9.0%




                                                                       36.4%
   Intensive Services
                                                                             40.5%




                                                                                     47.2%
         Core service
                                                                                      48.9%



                         0%      10%           20%         30%           40%         50%        60%

                                           Exiters With a Disability   All Exiters


Sources: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book
Tables II-18, II-19, PY 2003 WIASRD Data Book Tables II-16.




                                                                           Ensuring Access to WIA One-Stop System
                                                            30                         Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General

Other trends in selected services for exiters with disabilities in the Adult Program in
PY 2008, compared to all WIA exiters, include:

    •		 A slightly lower percentage of exiters with disabilities received on-the-job training
        (9.2% vs. 10.5%) and customized training (3.1% vs. 7.7%).

    •		 A higher percentage of exiters with disabilities received skill retraining/upgrading
        (13.5% vs. 10.8%) and other occupational skills training (75.7% vs. 72.9%).

    •		 A slightly lower percentage of exiters with disabilities received an Individual
        Training Account (6.4% vs. 7.0%).

See Exhibit 1 for additional information on Adult services.

WIA Dislocated Workers Program

More than half of all exiters with disabilities in the Dislocated Workers
Program received Core and Intensive Services, as the chart below shows.


            Services Received in PY 08 - Dislocated Workers Program
                                  (unaudited)



                                                18.7%
     Training Services
                                                     21.7%




                                                                                      47.4%
    Intensive Services
                                                                                              54.4%




                                                                                      47.8%
         Core s ervice
                                                                                         50.9%



                         0%       10%          20%           30%          40%         50%        60%

                                            Exiters With a Disability   All Exiters


Sources: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book
Tables III-22, III-21, PY 2003 WIASRD Data Book Tables III-17.




                                                                         Ensuring Access to WIA One-Stop System
                                                             31                      Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


Other trends in selected services received by persons with disabilities in the Dislocated
Workers Program, compared to all exiters, include:

   •		 A higher percentage of exiters with disabilities received on-the-job training
       (17.3% vs. 8.0%).

   •   Participation rates in customized training were identical for both groups (1.5%).

   •		 A slightly higher percentage of exiters with disabilities received ABE or ESL in
       combination with training (3.9% vs. 1.8%).

   •		 A lower percentage of exiters with disabilities received Skill retraining/upgrading
       (13.0% vs. 14.7%) and other occupational skills training (66.7% vs. 77.2%).

A slightly lower percentage of exiters with disabilities received an Individual Training
Account (12.8% vs. 13.9%).

See Exhibit 2 for additional information on Dislocated Workers services.

WIA Youth Program

The WIA Youth Program offers a different range of services. These services are:

       Educational achievement services — Educational achievement services include,
       but are not limited to, tutoring, study skills training, and instruction leading to
       secondary school completion, including dropout prevention strategies; and
       alternative secondary school offerings.

       Employment services — Employment services include paid and unpaid work
       experiences, including internships, and job shadowing; and occupational skills
       training.

       Summer youth employment opportunities — Summer employment opportunities
       directly linked to academic and occupational learning.

       Leadership development activities — Leadership development opportunities
       include, but are not limited to, opportunities that encourage responsibility,
       employability, and other positive social behaviors such as (a) exposure to post-
       secondary educational opportunities; (b) community and service learning
       projects; (c) peer-centered activities, including peer mentoring and tutoring; (d)
       organizational and team work training, including team leadership training; (e)
       training in decision making, including determining priorities; and (f) citizenship
       training, including life skills training such as parenting, work behavior training,
       and budgeting of resources.


                                                       Ensuring Access to WIA One-Stop System
                                            32                     Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General

         Additional support for youth services — Supports for youth services that include,
         but are not limited to, the following: (a) adult mentoring for a duration of at least
         twelve (12) months, that may occur both during and after program participation or
         (b) comprehensive guidance and counseling, including drug and alcohol abuse
         counseling, as well as referrals to counseling, as appropriate to the needs of the
         individual youth.

In contrast to the WIA Adult and Dislocated Workers programs, youth with disabilities
appear to participate in WIA services at least as much or more than all youth exiters.


             Services Received in PY 08- Youth Program (unaudited)


                                                                                   48.3%
        Additional support for youth services
                                                                                   47.8%


                                                                       30.7%
          Leadership development activities
                                                                           38.4%


                                                                    27.0%
   Summer youth employment opportunities
                                                                      31.0%


                                                                                         56.1%
                        Employment services
                                                                                          58.2%


                                                                                      51.8%
          Educational achievement services
                                                                                        55.6%


                                                0%   10% 20% 30%          40% 50% 60% 70%

                                                      Exiters With a Disability    All Exiters


Sources: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book
Tables IV-1, PY 2003 WIASRD Data Book Tables IV-16


Other selected highlights from the PY 2008 WIASRD report on services to youth exiters
include:




                                                                        Ensuring Access to WIA One-Stop System
                                                          33                        Report No. 25-10-001-03-390
                                               U. S. Department of Labor – Office of Inspector General

     •		 Nearly the same percentage of youth with disabilities received 12 months of
         follow-up services as all youth exiters (37.2% vs. 38.3%).

     •		 A higher percentage of youth with disabilities were enrolled in education13
	
         compared to all exiters (82.5% vs. 72.7%).

     •		 Nearly the same percentage of youth with disabilities received needs-based
         payments14 as all youth exiters (4.7% vs. 4.5%).

See Exhibit 3 for additional information on Youth services.

While WIASRD shows use of WIA services by disability status, variations within the
population by race and ethnicity, gender, age, or employment status are not available.

ETA stated that it does not collect information that would explain differences in services
used by persons with disabilities compared with persons without disabilities.

Disability Program Navigators

According to ETA, between 2003 and 2009, the Department of Labor, in collaboration
with SSA, jointly provided $137 million ($12 million from SSA) to 47 states, the District
of Columbia, Puerto Rico, Guam, and the U.S Virgin Islands. ETA’s cooperative
agreements with states were awarded incrementally over four rounds of solicitations in
order to maximize the availability of funds. Existing DPN states were required to submit
annual plans based upon ETA modification instructions prior to award of additional
funding. In PY 2008, funds allowed for support of about 550 Navigators; in PY 2009,
reduction in funding has allowed for support of 425 Navigators. ETA encouraged the
hiring of people with disabilities in Navigator positions and an informal survey in 2009
indicated that more than 30 percent of them had a disability.

Examples of how DPNs help persons with disabilities use the One-Stop System include
providing:

     •		 access to adaptive equipment and assistive technology;
     •		 guidance from One-Stop staff on how to use the various services and programs;
         offered by WIA One Stop partners;
     •		 assistance in obtaining and retaining employment; and
     •		 transition assistance for in- and out-of-school youth with disabilities.

The graph below shows the percent of DPNs who reported to ETA they engaged in
various activities to help meet the needs of persons with disabilities:


13
  According to the PY 2007 WIASRD Databook, “enrolled in education” describes an “individual enrolled in
secondary school, post-secondary school, adult education programs, or any other organized program of study.”
14
   Needs-based payments under WIA are payments made to “enable the individual to participate
in approved training funded under WIA Title IB.”
                                                                    Ensuring Access to WIA One-Stop System
                                                       34                       Report No. 25-10-001-03-390
                                                             U. S. Department of Labor – Office of Inspector General



                        Changes in the Workforce Investment SystemAttributed to the Disability Program
                          Navigator: Percentage of Navigators Actively Involved in Facilitating Change
            Improving Access to Adaptive Equipment and Technology
                                                                                                      90% 87%
                                                                              90%
            Improving Communication Access
                                                                                                             82%
                                                                              80%   72%                            74%
                                                                                          68%
            Providing Strategies and Resources to Remove Barriers             70%               64%

                                                                              60%
            Actively Developing Relationships with Mandated and Non-
            Mandated Partners                                                 50%
            Increased Staff Knowledge of Serving People w/ a wide             40%
            range of Disabilities
            Guiding One-Stop Staff in Assisting People w/ Disabilities        30%
            in Obtaining and Maintaining Employment
                                                                              20%
            Facilitating Transition of In and Out of School Youth w/
            Disabilities                                                      10%
                                                                               0%

         Source: ETA response to OIG questions, Attachment I


As part of its written response to questions from OIG, ETA included information based
upon informal surveys of 371 Disability Program Navigators DPN grantees. ETA
collected the information from Round 1 and Round 2 DPN Quarterly Reports submitted
between January 1, 2007, and December 31, 2007. The survey provides a “snapshot”
of how the DPNs have worked to improve access for persons with disabilities to the
One-Stop System and to increase their participation in WIA programs. DPNs reported
they worked to make the One-Stop Career centers more accessible (physically and
programmatically); provided One-Stop staff with tools and resources to serve persons
with disabilities; helped youth to connect to the WIA system; and facilitated better
coordination of One-Stop services and those offered by outside agencies.

The following chart summarizes the types of changes attributed to the DPN initiative
and the activities that contributed to the changes. The chart also notes which activity
was mentioned by the most DPNs in the survey.




                                                                                    Ensuring Access to WIA One-Stop System
                                                                         35                     Report No. 25-10-001-03-390
                                                    U. S. Department of Labor – Office of Inspector General



Type of change                         Activity                              Mentioned most frequently
One-Stop Centers are more              Increased availability of             3
accessible (physically and             adaptive technology and
programmatically)                      trained staff to use it.
                                       Improved communication
                                       between One-Stop staff and
                                       other systems of support.
                                       Identified strategies and
                                       resources to remove barriers
                                       to participation.
One-Stop staff has more tools          Built relationships with              3
and resources to serve                 mandated and non-mandated
customers.                             One-Stop partners to
                                       collaborate in providing
                                       services.
                                       Increased knowledge of staff
                                       in serving persons with
                                       different types of disabilities.

                                       Guided One-Stop staff on how
                                       to help persons with
                                       disabilities access program to
                                       retain jobs.
Youth with disabilities are            Facilitate transition of youth        ETA reported that 74 percent
being connected to the                 with disabilities to obtain           of the DPNs cited this activity.
workforce system.                      employment and economic
                                       self-sufficiency. (Only activity
                                       listed in the summary.)
Increased collaboration                Participated in local coalition       ETA reported that more than
between One-Stop and                   to address “system-level              80 percent of the DPNs cited
partner and community of               barriers to employment” for           this activity.
services to reduce duplication         persons with disabilities. (Only
of services.                           activity listed in summary.)

DPNs reported engaging the One-Stop Centers in other activities to assist persons with
disabilities in becoming more economically self-sufficient. These services included
providing on-site free assistance in filing for the Earned Income Tax Credit and other tax
benefits.

For more results of the survey, please see the Attachment to ETA’s responses to OIG’s
questions, in Appendix E.

According to ETA, some states have performed better than others and achieved greater
overall success. The DPN Initiative was designed as a pilot program and has been
generally identified as very successful. Based upon this success, ETA has encouraged
States to continue funding the DPNs through other resources.15 ODEP, working with
ETA, has recognized the successful results from the DPN initiative. ETA has shared
the results of its DPN evaluation with ODEP and the two agencies have used this
information to design FY 2010 collaborative plans.

15
     Subsequent to providing OIG with written responses to our questions, ETA provided this clarification.
                                                                          Ensuring Access to WIA One-Stop System
                                                            36                        Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General


ODEP also acknowledged the role of the DPNs in building the One-Stop System’s
capacity to serve persons with disabilities. ODEP noted that several of its pilot
demonstration programs (youth and adult) were located in the One-Stops. Final results
from these programs identified that the DPNs were extremely useful in building capacity
by helping to develop partnerships — with employers and community-based agencies
— and sustaining effective practices.

Studies, Demonstration Programs, and Evaluations

Additional information on how the One-Stop Systems ensure that persons with
disabilities have comprehensive access to WIA services can be found in a 4-year
longitudinal study conducted by the Academy for Educational Development (AED) for
ODEP, ODEP demonstration programs, and the evaluation of the Disability Program
Navigator initiative.

AED’s report on 12 local One-Stop Systems summarized mechanisms “that appear
necessary to promoting increased access to services for individuals with disabilities.”
The 12 sites in the AED study were:

Adult Sites

      1. Colorado Springs, Colorado: Pikes Peak Workforce Center

      2. Los Angeles, California: MetroNorth WorkSource Center, and Hollywood
         WorkSource Center.

      3. Rhode Island: netWORKri, Providence One-Stop Career Center

      4. New Orleans, Louisiana: Job One One-Stop Career Center

      5. Clark County, Washington: WorkSource Vancouver; Town Plaza WorkSource

      6. Utica, New York: Utica Working Solutions One-Stop; Rome County Working
         Solutions One-Stop.

Youth Sites

      7. Tucson, Arizona: Rico Neuvo and Ajo Way

      8. Albany, Georgia: Albany One Stop

      9. Waterloo, Iowa Hawkeye: Community College Workforce Development
         Center (HCCWD)

      10. Syracuse, New York: CNYWorks

                                                      Ensuring Access to WIA One-Stop System
                                            37                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General

       11. Providence, Rhode Island: netWorkri

       12. Bellingham, Washington: Northwest Workforce Development Council
           (NWDC)

The AED study cited the following mechanisms that appear necessary to promoting
increased access to services for individuals with disabilities.

Strong leadership. Staff from the local workforce investment boards and
community-based organizations “championed” disability issues.

Use of data for decision-making and planning. Some sites used data for decision-
making, and emphasized data collection. However, AED reported that most of the 12
sites could not accurately say how many persons with disabilities they had served, what
types of disabilities people had, what types of services they had received, or what
outcomes they had achieved. “The existing data management systems used by the
sites were not set up to record such information, let alone track or analyze it,” AED
reported.

Ongoing staff training. AED identified “considerable and continual professional
development” as critical to effective service delivery. Specifically, front-line staff at One-
Stop Centers needs training in doing appropriate assessments, using assistive
technology, providing accommodations and appropriate interventions. ODEP told OIG
that the Workforce Investment Act is the only Federal law appropriating funds for
working with people with disabilities that does not contain funding specifically for staff
training or requiring certification.

Work with employers. According to the AED study, “employer needs increasingly
became the driving force that One-Stops and youth service providers considered when
planning outreach and workforce development programming.” Some of the sites had
business service representatives (BSR) who focused on addressing retention issues
and worked with prospective employers to match the “skills sets” of persons with
disabilities rather than “sell” the idea that firms should hire people with disabilities. The
BSRs emphasized employers as “clients” and marketed the One-Stops as agencies to
help firms meet their business need — not just human service organizations. BSRs
worked with employers regarding “job-carving techniques and customized employment
strategies” to accommodate workers with disabilities. According to ODEP, “job-carving”
describes the process of modifying an “existing job description … [so it contains] one or
more, but not all, of the tasks from the original job description.” (Source:
http://www.dol.gov/odep/categories/workforce/CustomizedEmployment/what/index.htm)

Both ETA and ODEP identified training of front-line staff at One-Stop Centers as
essential to connecting persons with disabilities with appropriate workforce training and
related services. According to ETA, front-line staff at One-Stop Career Centers that
have Disability Program Navigators have received ongoing training. Reviewing how
DPNs spent their time over a 6-year period, ETA reports that 87 percent said they
worked to increase staff knowledge on serving customers with a wide range of
                                                        Ensuring Access to WIA One-Stop System
                                              38                    Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General

disabilities. A major role of the DPNs was to train One-Stop Career Center and partner
staff on how to serve customers with disabilities, conduct assessments, do outreach,
and to inform staff about community-based resources, disclosure, assistive
technology/accommodations/universal design, work and tax incentives, Federal, state,
and local services and benefits.

In addition to DPNs providing on-site training to staff, ETA provided other technical
assistance to build staff capacity in serving people with disabilities. Examples include
working with the Disability Business and Technical Assistance Coordinating (DBTAC)
grants16 to develop a free, on-line training for One-Stop staff called “At Your Service.”

One-Stop staff has also participated in webinars on disability-related issues and may
access material on ETA’s Workforce3One (http://www.workforce3one.org/), which
includes videos and narratives on promising practices of working with individuals with
disabilities in the workforce system.

Building relationships with employers is crucial to helping all WIA participants —
especially those with disabilities — obtain and retain jobs. Both ETA and ODEP have
supported initiatives targeted to increasing employers’ support for hiring persons with
disabilities who are qualified for available positions.

According to ETA, several State and local Workforce Investment Boards have been
active in engaging employers in planning WIA employment and training services to
people with disabilities. Additionally, DPNs have worked with local Business Leadership
Networks (BLN) and local Business Advisory Councils. ETA reports it also has
developed resource materials targeting local firms on the business case for hiring
persons with disabilities.

ODEP research has highlighted effective strategies of working with employers to hire
persons with disabilities. The AED study reported that “using an employer language and
‘mindset’ — “solving retention problems and matching positions with skill sets” worked
better than “selling” the hiring of people with disabilities. This approach increased
employers’ awareness that One-Stops are “more than human service organizations.”
According to AED, the “message” is that employers wanted to be treated as “clients.”
For more information on the AED’s findings related to employer engagement, see the
executive summary of the AED report (Appendix I).



16
   The grants are funded through the U.S. Department of Education (ED). ED awards grants to 10 regions. Grantees
use the funds to “provide technical assistance, information and training on interpretation and implementation of the
Americans with Disabilities Act.” Examples of activities provided by grantees include: providing information, technical
assistance and training to education-based entities on accessible information technology; conducting program
evaluation research; and doing outreach, coordination and dissemination activities.
http://www2.ed.gov/programs/dbtac/index.html




                                                                       Ensuring Access to WIA One-Stop System
                                                          39                       Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General

One indicator of the outcome of DOL’s efforts to work with employers on hiring and
retaining workers with disabilities is data from the DPN initiative. ETA reported that for
Program Years 2006 through 2007, the entered employment rate for local Workforce
Investment Boards with a DPN was 65 percent compared to 56 percent to those without
a DPN. Additionally, the retention rate was nearly identical — 79 percent for WIBs with
the DPN and 80 percent for those without.

ETA stated that agency staff also works closely with One-Stop partners (e.g., Vocational
Rehabilitation, Adult Education, TANF) and other Federal agencies to coordinate and
leverage resources to improve employment outcomes for individuals with disabilities.
ETA has been, and continues to be, involved in several major inter-agency initiatives
with these Federal partners around disability and employment-related issues. Examples
of other Federal agencies that ETA staff works with to improve workforce services for
persons with disabilities include the National Institute on Corrections, Substance Abuse
and Mental Health Services (SAMHSA), HHS, Transforming Mental Health Care in
America Inter-Agency Partner Group, and United We Ride.

ODEP reports that nearly all of its work is done through partnerships with both Federal
and non-Federal agencies. ODEP manages the web site www.Disability.gov, which
links users to disability-related resources with at least 21 other Federal agencies. Other
examples of ODEP’s collaboration with Federal and non-Federal agencies include:

          •		 Leadership of the Federal Partners in Transition Workgroup, which is
              comprised of staff from the Departments of Labor, Education, Health and
              Human Services (HHS) , and the Social Security Administration. The
              Workgroup focuses on improving outcomes for transition-age youth with
              disabilities.

          •		 Support of a national Technical Assistance Center housed at Rutgers
              University to encourage state workforce agencies to partner with other
              state systems, including those who are disability-specific (e.g., Vocational
              Rehabilitations) and more “generic” (e.g., Small Business). One of the
              goals is to document strategies for successful partnership development.

          •		 Promotion of cross-systems work around disability in the areas of foster
              care, juvenile justice, education, and mental health with the support of
              ODEP’s National Collaborative on Workforce and Youth. www.ncwd-
              youth.

          •		 Chairmanship of a cross-agency workgroup on Asset Development and
              Financial Education. The group includes representatives of 18 Federal
              programs and agencies (e.g., VR, HHS, Commerce, Treasury, IRS and
              others). The workgroup’s focus is to facilitate coordination of “Federal
              government research, policy, and programming in the areas of tax and
              financial incentives and asset development.” The group recognizes that
              one of the challenges of workers with disabilities is to build their assets

                                                      Ensuring Access to WIA One-Stop System
                                            40                    Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General

             and access financial services. More information is available at:
             http://www.dol.gov/odep/fineddev.htm

          •		 Partnership with the Centers for Medicare and Medicaid Services (CMS)
              to research and develop information to expand funding of supported and
              customized employment, including services offered through the One-Stop
              Systems.

Ongoing Initiatives

Based on some of the more promising practices of the DPN initiative, beginning in
FY 2010, the Department began the Disability Employment Initiative, which is jointly
administered by ETA and ODEP. DOL plans to use the $24 million provided by
Congress to support three “components:” competitive grants to States; technical
assistance to the public workforce system, including development of training curriculum
so that front-line One-Stop staff can better serve people with disabilities; and an
evaluation of the initiative. To date, the Department has provided the Senate Committee
on Appropriations with an MOU between ETA and ODEP that outlines each agency’s
role and responsibilities in the project and a joint work plan.

Another recent initiative is ODEP’s cooperative agreement with the National Technical
Assistance, Policy and Research Center at Cornell University. Under the agreement,
Cornell is housing the Employer Assistance & Resource Network (EARN). Through
EARN, ODEP hopes to expand “promising practices” of working with employers and
provide them with “free consulting services and resources to support the recruitment
and hiring of people with disabilities.” More information about the services for
employers is available at: http://www.earnworks.com/.




                                                    Ensuring Access to WIA One-Stop System
                                          41                    Report No. 25-10-001-03-390
                                                   U. S. Department of Labor – Office of Inspector General



4. 	     What outcomes are achieved by persons with disabilities who use the
         One-Stop System?

As required by WIA Section 136, the core indicators of performance for adults and
dislocated workers are the entered unsubsidized employment rate, retention in
unsubsidized employment 6 months after entry, and earnings in unsubsidized
employment 6 months after entry into employment.

The following charts present the outcomes achieved for the core indicators of
performance in the adult and dislocated worker programs in PY 2008 for program
exiters who self-reported disabilities and for all program exiters.



                              Selected Outcomes in PY 08 - Adult (unaudited)



                                                                                                             83.8%
        Retention in 2nd and 3rd
                quarters
                                                                                                        79.0%




                                                                                              68.1%
            Entered employment
             (quarter after exit)
                                                                                  53.4%




                                    0%     10%     20%      30%     40%     50%     60%     70%        80%    90%    100%

                                                           People with a Disability      All Exiters


Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables II-29,
II-30, PY 2003 WIASRD Data Book Tables II-26.




                                                                          Ensuring Access to WIA One-Stop System
                                                           42                         Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General


                          Average earnings in 2nd and 3rd quarters PY 08 - Adult
                                               (unaudited)

              $20,000

              $18,000

              $16,000                                                              $14,811
              $14,000
                                           $11,509
              $12,000

              $10,000

               $8,000

               $6,000

               $4,000

               $2,000

                   $0
                                    People w ith a Disability                      All Exiters

                                               Average earnings in 2nd and 3rd quarters



Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables II-29,
II-30, PY 2003 WIASRD Data Book Tables II-26.



               Selected Outcome in PY 08 - Dislocated Workers (unaudited)



                                                                                                        86.6%
   Retention in 2nd and 3r d
           quarters
                                                                                                       83.8%




                                                                                        67.9%
       Entered employment
        (quarter after exit)
                                                                                  59.6%




                               0%      10%      20%     30%     40%   50%     60%     70%        80%    90%    100%

                                                       People with a Disability   All Exiters



Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables III-33,
III-34, PY 2003 WIASRD Data Book Tables III-27.



                                                                       Ensuring Access to WIA One-Stop System
                                                           43                      Report No. 25-10-001-03-390
                                                 U. S. Department of Labor – Office of Inspector General



                           Average earnings in 2nd and 3rd quarters PY 08 - Dislocated
	
                                              Workers (unaudited)
	


                 $20,000

                 $18,000
                                                                                 $16,086
                 $16,000                  $14,525
                 $14,000

                 $12,000

                 $10,000

                  $8,000

                  $6,000

                  $4,000

                  $2,000

                      $0
                                   People w ith a Disability                    All Exiters

                                              Average earnings in 2nd and 3rd quarters



      Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables III-33,
      III-34, PY 2003 WIASRD Data Book Tables III-27.



The core indicators of performance for older youth are the entered unsubsidized
employment rate, credential rate, retention in unsubsidized employment 6 months after
entry, and earnings change.

The following chart presents the outcomes achieved for the core indicators of
performance by older youth in PY 2008 for program exiters who self-reported disabilities
and for all program exiters.




                                                                      Ensuring Access to WIA One-Stop System
                                                          44                      Report No. 25-10-001-03-390
                                                   U. S. Department of Labor – Office of Inspector General


                       Selected Outcome Data PY 08 - Older Youth (unaudited)



        Employment Retention                                                                         84.1%
               Rate                                                                                  83.7%



                                                                      42.8%
               Credential Rate
                                                                  39.1%



          Entered Employment                                                                 72.8%
                 Rate                                                                  65.9%


                                  0%     10%    20%     30%     40%     50%    60%     70%     80%     90% 100%

                          # of Older Youth - W ith a Disability      # of All Older Youth Exiters

Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables IV-44,
IV-40, PY 2003 WIASRD Data Book Tables IV-36, IV24.


The core indicators of performance for younger youth are the retention rate, diploma
attainment rate, and skill attainment rate.

The following charts present the outcomes achieved for the core indicators of
performance by younger youth in PY 2008 for program exiters who self-reported
disabilities and for all program exiters.




                                                                        Ensuring Access to WIA One-Stop System
                                                           45                       Report No. 25-10-001-03-390
                                                   U. S. Department of Labor – Office of Inspector General


                     Selected Outcome Data PY 08 - Younger Youth (unaudited)



                                                                                   71.8%
           Retention rate
                                                                                 68.3%



                                                                                            82.7%
   Skill attainment rate
                                                                                            84.0%



    Diploma attainment                                                          68.0%
          rate                                                                        75.2%


                            0%           20%            40%            60%            80%           100%

              # of Younger Youth - W ith a Disability         # of All Younger Youth Exiters


Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables IV-44, IV-40,
PY 2003 WIASRD Data Book Tables IV-36, IV24.


Additionally, ETA collects and reports through WIASRD the occupation of employment
for individuals who obtain unsubsidized employment. The occupations reported are
managerial, professional and technical; service occupation; sales and clerical; farming,
fishing, forestry, construction and extraction; installation, repair, production,
transportation, and material moving; and nontraditional employment. Based on our
review of the data reported, there did not appear to be significant differences in the
occupations of employment obtain by WIA exiters with disabilities compared with all
WIA exiters.

Exhibits 4, 5, and 6 present selected outcome data for PYs 2003 and 2008.

ETA stated that it had no additional outcome data on exiters with disabilities beyond
what is reported in WIASRD, and did not have data on the status of participants with
disabilities that did not “exit” from the Adult, Dislocated Worker, and Youth programs.
ETA stated it provides state and local workforce entities informal guidance and available
resources on serving the neediest of youth, including youth with disabilities. In addition,
ETA issued Training and Employment Notice No. 10-09: “Toolkit and White Paper on
Improving Transition Outcomes of Youth with Disabilities through Apprenticeship.” This
tool focuses on expanding apprenticeship opportunities for youth and young adults with
disabilities.

One possible additional indicator of the outcome of DOL’s efforts to work with
employers on hiring and retaining workers with disabilities is data from the DPN
initiative. ETA reported that for Program Years 2006 through 2007, the entered
employment rate for local Workforce Investment Boards with a DPN was 65 percent

                                                                         Ensuring Access to WIA One-Stop System
                                                           46                        Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General

compared to 56 percent to those without a DPN. Additionally, the retention rate was
nearly identical — 79 percent for WIBs with the DPN and 80 percent for those without.




                                                    Ensuring Access to WIA One-Stop System
                                          47                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General

5. 	   What evaluations of WIA services to persons with disabilities has the
       Department conducted?

Timely and relevant program evaluation helps Federal agencies know if investments are
achieving the desired goals and objectives, and identifies changes that can be made to
improve outcomes. Program evaluation is most useful when agencies review and
consider the findings and recommendations in strategic planning and decision-making
related to budgets, program design, and service delivery.

Since 2003, the Department has conducted several independent evaluations of its
initiatives to improve WIA services to persons with disabilities. These include an
evaluation of the Disability Program Navigator initiative and ODEP demonstration
projects. Additionally, the Government Accountability issued its review of DOL efforts to
ensure One-Stop accessibility for this population.

The evaluation of the DPN initiative and ODEP projects identified “promising practices”
of what the One-Stop System can do to help persons with disabilities access
appropriate workforce training, employment, and related services. One of the cross-
cutting findings was that front-line staff in One-Stop Career Centers can benefit from
more training on how to work effectively with people who have different types of
disabilities. DOL received $24 million from Congress for its FY 2010 budget to
implement a Disability Employment Initiative that ETA and ODEP are jointly
administering. The purpose of the initiative is to build on “lessons learned” from the DPN
grants and to build the capacity of the One-Stop System nationwide to better serve
persons with disabilities.

DOL plans to continue its assessment of how the One-Stop System provides access
and services to persons with disabilities. ETA will evaluate the initiative with ODEP and
review strategies in States that serve a high percentage of youth with disabilities while
meeting performance goals. ODEP plans to evaluate its technical assistance centers
and do a survey to assess One-Stop programmatic and physical accessibility. ETA’s 5-
year evaluation plan notes that a comprehensive evaluation of WIA programs could
include an assessment of how One-Stop Career Centers are assisting job seekers with
complex barriers to employment — including those with disabilities. However, the WIA
Gold Standard Evaluation of WIA due in 2015 does not include that component.

Summary of Selected Evaluations

The following table summarizes selected independent evaluations DOL has conducted
that contain information on how the One-Stop System can better serve persons with
disabilities.




                                                     Ensuring Access to WIA One-Stop System
                                           48                    Report No. 25-10-001-03-390
                                                                             U. S. Department of Labor – Office of Inspector General


         Table: Summary of Selected Independent Evaluations of Department of Labor Initiatives
                         to Provide WIA Services to persons with Disabilities
     Name of Evaluation              Objective(s)                 Summary of Selected Findings
Analysis of Change: A Four-Year    The objective was to identify             Multiple strategies may improve access and
Longitudinal Study of One-Stop     supports that are needed to provide       outcomes. Examples include: accountability policies
Systems Serving Youth and          efficient and universal access in         for serving individuals with disabilities, procedures and
Adults with Disabilities, by the   serving individuals with disabilities     policies related to customers with disabilities, disability
Academy for Educational            through the WIA’s One-Stop Career         point persons, engaging employers, focusing on
Development (2008). See            System. Researchers assessed              universal service delivery, leveraging on non-WIA
Appendix H for a copy of the       One-Stop services at 12 local sites.      resources, and providing for continual professional
Executive Summary.                                                           development.
Serving People with Disabilities   Researchers looked at “ the extent        Researchers found that the One-Stop System as a
through the Workforce              to which people with disabilities are     whole — often with the help of special grant funding
Investment                         served through                            such as the DPNs — has made significant strides
Act’s One-Stop Career Centers,     WIA’s One-Stop System and its             since WIA’s inception in reducing barriers pertaining to
by The Urban Institute (2004).     capacity to serve people with             physical access and inability to address special
See Appendix I for a copy of the   disabilities who desire employment        accommodation needs. Although there is no
Executive Summary.                 assistance, both in terms of              comprehensive source of information available to
                                   common barriers to access as well         determine how fully programmatic accessibility has
                                   as promising strategies to improve        been achieved across the One-Stop System, various
                                   service delivery to [this population].”   case studies of One-Stop Career Centers suggest that
                                                                             progress has been made in this area as well-although
                                                                             generally not as much as with improving physical and
                                                                             technological access….”
Chronic Homelessness               Researchers assessed the extent to        More than half of the participants (58 percent)
Demonstration Program: A           which the five demonstration sites        obtained some type of employment — nearly 44
Synthesis of Key Findings,         improved capacity, coordinated            percent obtained a competitive employment position.
Issues, and Lessons Learned, by    services, provided quality services,      Examples of factors contributing to positive outcomes
Westat (2009). See Appendix J      helped participants obtain jobs, and      included promoting partnerships with both
for a copy of the Executive        sustained their work after the grant      governmental and community-based agencies and
Summary.                           ended.                                    providing training to One-Stop staff and those at
                                                                             partner agencies.




                                                                                               Ensuring Access to WIA One-Stop System
                                                                                   49                      Report No. 25-10-001-03-390
                                                                              U. S. Department of Labor – Office of Inspector General


         Table: Summary of Selected Independent Evaluations of Department of Labor Initiatives
                         to Provide WIA Services to persons with Disabilities
     Name of Evaluation              Objective(s)                 Summary of Selected Findings
Labor Has Taken Several Actions      GAO examined efforts by DOL, the         GAO recommended that DOL should develop and
to Facilitate Access to One-Stops    States and One-Stops to facilitate       implement a long-term plan for ensuring that the One-
for Persons with Disabilities, but   comprehensive access to the One-         Stops comply with the comprehensive access
These Efforts May Not Be             Stop System for people with              requirements. According to GAO and DOL, a work
Sufficient, GAO-05-54 (2004).        disabilities. Additionally, auditors     group provided GAO with a “framework” for this effort.
See Appendix K for a copy of the     looked at what DOL has done to
Executive Summary.                   ensure that the One-Stops are
                                     meeting the comprehensive access
                                     requirements (WIA Section 188) and
                                     the factors that have affected efforts
                                     to ensure compliance.
Disability Program Navigator         Evaluators interviewed 117 people        Examples of key findings include: more than a third of
Project Prospects for Systems        in four states about their               respondents said the DPN made the One-Stops more
Change – 2005, by Law, Health        experiences of the implementation        accessible; respondents in all states said more
Policy and Disability Center,        phase of the DPN initiative.             persons with disabilities were seeking services
University of Iowa College of                                                 through the One-Stops as a result of the DPNs; and
Law, University of Colorado at                                                collaboration and communication in the local
Denver and Health Sciences                                                    workforce network had improved.
Centers Colorado WIN Partners
(2006). See Appendix L for a
copy of the Executive Summary.
Evaluation of Disability             The evaluation examined practices        Researchers found that a “major deterrent” to serving
Employment Policy                    and outcomes from sites involved in      people with disabilities was that One-Stop staff lacked
Demonstration Programs: A            various ODEP demonstration               “knowledge and understanding” on how to assist this
Preliminary Synthesis of Findings    projects such as: Customized             population. Some sites developed innovative curricula
from the Independent Evaluation      Employment. Chronic                      and competency requirements to use in staff
of the ODEP Demonstration            Homelessness, and Mentoring and          development. Examples of other findings were: among
Program by Westat, Inc. (July        Youth State Intermediary programs.       program participants served by the projects, nearly 45
2007). See Appendix M for a          Researchers focused on                   percent were placed in some form of employment;
copy of the Report Summary.          “challenges and success of local         more than 95 percent earned more than minimum
                                     workforce development systems in         wage; and nearly 74 percent had retained their job for
                                     effectively serving people with          12 months or more.
                                     disabilities.”
                                                                                              Ensuring Access to WIA One-Stop System
                                                                                    50                    Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


Highlights of these evaluations include:

          •		 Disability Program Navigators were extremely useful in building systems
              capacity, including partnerships, capacity building, and sustainability of
              effective practices in local workforce areas that were sites in some of the
              ODEP demonstration projects.

          •		 More than a third of 117 people interviewed in a 4-state study of the DPN
              initiative credited the DPNs with making the One-Stop Centers more
              accessible.

          •		 Several studies (AED, Urban Institute, Westat, and University of Iowa)
              cited the importance of training One-Stop staff to work more effectively
              with people with disabilities.

ETA is awaiting final results from its evaluation of the DPN. According to ETA officials,
Mathematica Policy Research, Inc., is in the process of comparing individualized WIA
and Wagner-Peyser data on service levels and outcomes against Social Security
Administration’s disability rolls in four states that had DPN grants. ETA expects the
results by March 2010.

DOL Actions Resulting from Evaluations

As previously reported, ETA and ODEP have launched a joint $24 million Disability
Employment Initiative to build on “lessons learned” from the DPN and to expand its
promising practices to the One-Stop System nationwide. Components of the initiative
will be competitive state grants, technical assistance, including the development of
training curricula for front-line One-Stop staff, and an evaluation. Although the two
agencies have not finalized the grant solicitation, ETA shared a draft implementation
plan with OIG showing that grantees will be required to use effective practices identified
in the DPN and research with One-Stop Career Centers.

According to the draft plan, examples of these “promising and validated practices”
include, but are not limited to:

   •		 One Stops registering as Employment Networks under the Ticket to Work
       Program;
   •		 conducting outreach to the disability community that improves access to
       One-Stop Career Center services
   •		 marketing to the business community to promote the hiring and retention of
       people with disabilities;
   •		 One-Stops increasing their use of Universal Design in the organization and
       implementation of services; and
   •	 increasing collaboration with programs serving youth in order to increase
       participation of youth with disabilities in One-Stop programs and services.

                                                      Ensuring Access to WIA One-Stop System
                                            51                    Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


ODEP reports it has used information from evaluation of its demonstration programs to
issue various materials for technical assistance (e.g., briefs, youth “guideposts.”)
Examples of these resources and publications are available on ODEP’s web site at:

http://www.dol.gov/odep/categories/youth/
http://www.dol.gov/odep/pubs/publicat.htm

Upcoming Evaluations and Studies

In addition to evaluating the joint $24 million ETA and ODEP initiative, the Department
is planning to continue its assessment of how the One-Stop System provides WIA
services to persons with disabilities.

ODEP has contracted with the Institute for Educational Leadership (IEL) to review
strategies used by States that served a high percentage of youth with disabilities in the
WIA Youth Program and also met their performance goals in PY 2007. The IEL study
will include seven local Workforce Investment Boards that served at least 150 youth in
the WIA Youth Program with at least 25 percent having reported disabilities. The study
addresses the issue that a possible disincentive for enrolling hard-to-place participants
in WIA programs is that States and local areas will not meet negotiated performance
goals.

ODEP has plans to evaluate its technical assistance centers. Under contract with
ODEP, Social Dynamics, Inc., will review areas such as progress toward meeting the
project’s goals and objectives, services provided, customer satisfaction with services,
and identification of promising practices.

ETA’s 5-year pilot demonstration and evaluation strategic plan for 2007-2012 states that
one of its future research priorities is “increasing labor market participation of
underutilized populations’’ — including people with disabilities. The plan also states that:

        “One-Stop Career Centers could also be essential in demonstrating the universal
       strategies that have proven successful in assisting job seekers with complex
       barriers to employment (such as individuals with disabilities, homeless
       individuals, TANF recipients, and older workers) to successfully achieve
       employment outcomes. An examination of these issues could be included as part
       of a comprehensive evaluation of the WIA programs.”

The current WIA Gold Standard Evaluation of WIA, being conducted by Mathematica
Policy Research, Inc., will not look specifically at issues related to programmatic
accessibility for persons with disabilities. The evaluation will collect employment and
earnings results for individuals with disabilities who participated in the WIA program, but
for informational purposes only. The final report is due in 2015.




                                                      Ensuring Access to WIA One-Stop System
                                            52                    Report No. 25-10-001-03-390
                                 U. S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that ETA, ODEP and CRC personnel
extended to the Office of Inspector General during this project.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                 Ensuring Access to WIA One-Stop System
                                       53                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               54                    Report No. 25-10-001-03-390
             U. S. Department of Labor – Office of Inspector General




Exhibits
	




                             Ensuring Access to WIA One-Stop System
                   55                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
               56                    Report No. 25-10-001-03-390
                                                   U. S. Department of Labor – Office of Inspector General

                                                                                                               Exhibit 1



                          WIA Adult Program: Services Received (unaudited)

                                                                   PY 2008                           PY 2003
                                                            Exiters                           Exiters
                       Adult                                With a         All Exiters        With a         All Exiters
                                                           Disability                        Disability
 Number of Exiters                                          33,809           849,738           14,056          219,979
 Services Received
 Core service                                                48.9%            47.2%            20.2%            19.9%
  Intensive Services                                         40.5%            36.4%            37.2%            33.3%
 ITA established                                             6.4%              7.0%            20.8%            26.2%
 Training Services                                           9.0%             11.6%            42.6%            46.8%
                             On-the-Job Training             9.2%             10.5%             7.2%            10.6%

                 Skill upgrading and retraining              13.5%            10.8%            17.1%            6.8%

                        Entrepreneurial training             0.5%              0.4%              NA               NA
   ABE or ESL in combination with training                   1.7%              1.1%              NA               NA
                             Customized training             3.1%              7.7%              NA               NA
            Other occupational skills training               75.7%            72.9%            20.8%            26.2%


Sources: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables II-18, II-19, PY
2003 WIASRD Data Book Tables II-16.




                                                                         Ensuring Access to WIA One-Stop System
                                                            57                       Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               58                    Report No. 25-10-001-03-390
                                                    U. S. Department of Labor – Office of Inspector General



                                                                                                                Exhibit 2

                WIA Dislocated Workers Program: Services Received (unaudited)

                                                                                                     PY 2003
                                                           PY 2008
     Dislocated Workers
                                               Exiters With a              All           Exiters With a             All
                                                 Disability              Exiters           Disability             Exiters

Number of Exiters                                    9,185              293,614                6,972              187,664

Services Received
Core service                                         50.9%               47.8%                20.0%                12.6%
Intensive Services                                   54.4%               47.4%                33.3%                32.8%
ITA established                                      12.8%               13.9%                27.8%                37.6%
Training Services                                    21.7%               18.7%                46.7%                54.6%
                On-the-Job Training                  17.3%                8.0%                 6.4%                 6.5%

   Skill upgrading and retraining                    13.0%               14.7%                  NA                   NA

           Entrepreneurial training                  1.5%                 1.0%                  NA                   NA
       ABE or ESL in combination
                                                     3.9%                 1.8%                  NA                   NA
                     with training
                Customized training                  1.5%                 1.5%                  NA                   NA
          Other occupational skills
                                                     66.7%               77.2%                27.8%                37.6%
                          training

Sources: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables III-22, III-21, PY
2003 WIASRD Data Book Tables III-17.




                                                                          Ensuring Access to WIA One-Stop System
                                                             59                       Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               60                    Report No. 25-10-001-03-390
                                                  U. S. Department of Labor – Office of Inspector General



                                                                                                             Exhibit 3



                          WIA Youth Program: Services Received (unaudited)

                                                                    PY 2008                           PY 2003

                       Youth                           Exiters With a             Exiters With a
                                                                      All Exiters                All Exiters
                                                         Disability                 Disability

Number of Exiters                                          15,729           115,083           26,266           166,831

Services Received (Youth Activities)
Educational achievement services                            55.6%             51.8%            55.6%            55.9%
Employment services                                         58.2%             56.1%            59.1%            55.5%
Summer youth employment opportunities                       31.0%             27.0%            33.8%            33.7%
Leadership development activities                           38.4%             30.7%            30.4%            27.4%
Additional support for youth services                       47.8%             48.3%            36.6%            35.2%

Sources: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables IV-17, PY 2003
WIASRD Data Book Tables IV-14




                                                                        Ensuring Access to WIA One-Stop System
                                                           61                       Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               62                    Report No. 25-10-001-03-390
                                                        U. S. Department of Labor – Office of Inspector General



                                                                                                                Exhibit 4


                           WIA Adult Program: Selected Outcomes (unaudited)


                           Adult                                       PY 2008                 PY 2003

                                                              Exiters                     Exiters
                                                              with a          All         with a        All
    Common Measure                                           Disability     Exiters      Disability   Exiters
    Number of exiters                                         31,591        786,653       15,677      253,053
    Entered employment (quarter after exit)1                    53.4%         68.1%         60.9%       72.5%
    Retention in 2nd and 3rd quarters2                          79.0%         83.8%         80.2%       84.0%
    Average earnings in 2nd and 3rd quarters2                  $11,509       $14,811          --          --
    Information about Employment in
    Quarter after Exit
    Occupation of Employment1
    Managerial, professional and technical                       21.4%           24.5%      17.3%         20.0%
    Service occupation                                           27.2%           23.6%      28.3%         23.6%
    Sales and clerical                                           22.0%           20.8%      27.1%         25.1%
    Farming, Fishing, Forestry, construction and
    extraction                                                     3.8%          4.5%        2.9%          4.2%
    Installation, Repair, Production,
    Transportation, and Material Moving                          25.6%           26.7%      24.4%         27.0%
    Nontraditional Employment                                     1.1%            0.5%       3.4%          2.8%


Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables II-29, II-30, PY
2003 WIASRD Data Book Tables II-26.

1
    Based on exiters from October 2007 to September 2008
2
    Retention Rate is based on exiters from April 2007 to March 2008




                                                                             Ensuring Access to WIA One-Stop System
                                                                63                       Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               64                    Report No. 25-10-001-03-390
                                                        U. S. Department of Labor – Office of Inspector General



                                                                                                                 Exhibit 5


                 WIA Dislocated Workers Program: Selected Outcomes (unaudited)

                  Dislocated Workers                                   PY 2008                  PY 2003

                                                              Exiters                     Exiters
                                                              with a          All         with a         All
    Common Measure                                           Disability     Exiters      Disability    Exiters
    Number of exiters                                          9,142        248,809        7,366       195,553
    Entered employment (quarter after exit)1                    59.6%         67.9%         76.7%        80.7%
    Retention in 2nd and 3rd quarters2                          83.8%         86.6%         88.2%        89.8%
    Average earnings in 2nd and 3rd quarters2                  $14,525       $16,086          --           --
    Information about Employment in
    Quarter after Exit
    Occupation of Employment1
    Managerial, professional and technical                       23.3%           23.7%      20.9%          24.5%
    Service occupation                                           16.8%           14.7%      14.5%          12.7%
    Sales and clerical                                           25.7%           24.5%      24.5%          26.3%
    Farming, Fishing, Forestry, construction and
    extraction                                                     3.3%          3.6%        4.3%           3.3%
    Installation, Repair, Production,
    Transportation, and Material Moving                          30.9%           33.5%      35.7%          33.2%
    Nontraditional Employment                                     0.9%            1.1%       3.2%          3.50%


Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables III- 33, III-34, PY
2003 WIASRD Data Book Tables III-27.
1
    Based on exiters from October 2007 to September 2008
2
    Retention Rate is based on exiters from April 2007 to March 2008




                                                                             Ensuring Access to WIA One-Stop System
                                                                65                       Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               66                    Report No. 25-10-001-03-390
                                                        U. S. Department of Labor – Office of Inspector General


                                                                                                               Exhibit 6


                          WIA Youth Program: Selected Outcomes (unaudited)
                                                           Older                      Younger
                                                          Youth                        Youth            All
                      PY2008                              Exiters       All Older      Exiters       Younger
                                                          With a         Youth         With a         Youth
                                                         Disability      Exiters      Disability      Exiters

                Number of Exiters                              2,673      31,501        13,220        84,761
                                  1
    Entered Employment Rate (%)                                65.9%       72.8%
    Credential Rate (%)1                                       39.1%       42.8%
    Employment Retention Rate (%)2                             83.7%       84.1%
    Earning Change ($)2                                        $3,714      $4,027
    Retention rate2                                                                      68.3%          71.8%
    Diploma attainment rate3                                                             75.2%          68.0%
    Skill attainment rate3                                                               84.0%          82.7%
                                                           Older                      Younger
                                                          Youth                        Youth            All
                      PY 2003                             Exiters       All Older      Exiters       Younger
                                                          With a         Youth         With a         Youth
                                                         Disability      Exiters      Disability      Exiters

                Number of Exiters                             3,265       31,017        20,362        133,749
                                  1
    Entered Employment Rate (%)                              62.2%        70.0%
    Credential Rate (%)1                                     45.1%        46.4%
    Employment Retention Rate (%)2                           82.0%        81.5%
    Earning Change ($)2                                       $2,572       $3,131
    Retention rate2                                                                       60.8%         59.4%
    Diploma attainment rate3                                                              69.7%         60.9%
    Skill attainment rate3                                                                85.8%         84.3%


Source: U.S. Department of Labor. Employment and Training Administration. PY 2008 WIASRD Data Book Tables IV-44, IV-40, PY
2003 WIASRD Data Book Tables IV-36, IV24.
1
    Based on exiters from October 2007 to September 2008
2
    Retention Rate is based on exiters from April 2007 to March 2008
3
    Retention Rate is based on exiters from April 2008 to March 2009




                                                                         Ensuring Access to WIA One-Stop System
                                                                67                   Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               68                    Report No. 25-10-001-03-390
             U. S. Department of Labor – Office of Inspector General




Appendices




                             Ensuring Access to WIA One-Stop System
                   69                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
               70                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

The Workforce Investment Act of 1998 (WIA) was designed to provide a streamlined
system of employment assistance that integrates many employment and training
programs through a One-Stop service delivery system for employers and job seekers,
including job seekers with disabilities. WIA is intended to provide employment and
training services to assist eligible individuals in finding, and qualifying for, meaningful
employment and to help employers find the skilled workers they need to compete and
succeed in business. DOL’s ETA is responsible for administering the programmatic
aspects of WIA at the Federal level, while the Civil Rights Center (CRC) is responsible
for administering and ensuring compliance with the statute’s nondiscrimination and
equal opportunity requirements. WIA goals are to:

   •		 increase employment, as measured by entry into unsubsidized employment;

   •		 increase retention in unsubsidized employment six month after entry into
       employment;

   •	 increase earnings received in unsubsidized employment for dislocated workers;
      and

   •	 enhance customer satisfaction for participants and employers.

The One-Stop delivery system provides a full menu of job training, education, and
employment services at a single neighborhood location where adults, veterans,
dislocated workers, and youth receive skills assessment services, information on
employment and training opportunities, unemployment services, job search and
placement assistance, and up-to-date information on job vacancies.

The Adult and Dislocated Worker programs are authorized under Title IB of WIA. WIA
provides for formula-based funding to State Workforce Agencies to design and operate
both programs. The Adult program provides employment and training activities for
adults, including low income individuals and public assistance recipients. The category
of “public assistance recipients” includes disabled individuals receiving SSI. The
Dislocated Worker program provides reemployment services and retraining assistance
to individuals permanently dislocated from their employment. State Workforce Agencies
can use Dislocated Worker program funds for rapid response assistance to help
workers affected by mass layoffs and plant closures.




                                                       Ensuring Access to WIA One-Stop System
                                             71                    Report No. 25-10-001-03-390
                                              U. S. Department of Labor – Office of Inspector General


WIA programs provide for three tiers, or levels, of service for adults and dislocated
workers:

        Core services — include basic services such as job searches and labor market
        information. These activities may be self-service or require some staff
        assistance. WIA excludes job seekers who receive core services that are self-
        service and informational in nature from being included in the performance
        measures.

        Intensive services — include such activities as comprehensive assessment and
        case management, or activities that require greater staff involvement.

        Training services — include such activities as occupational skills or on-the-job
        training.

Under Title I of the Workforce Investment Act of 1998 (WIA), Youth Activities funds are
allocated by formula to state and local areas to deliver a comprehensive array of youth
workforce investment activities. WIA authorizes services to low-income youth (ages 14
through 21) with barriers to employment. Eligible youth are deficient in basic skills or are
homeless, are runaways, are pregnant or parenting, or are offenders, school dropouts,
or foster children. The program serves both in- and out-of-school youth, including youth
with disabilities and other youth who may require additional assistance to complete an
educational program or to secure and hold employment. Service providers prepare
youth for employment and post-secondary education by stressing linkages between
academic and occupational learning. They also assist youth by providing tutoring,
alternative secondary school services, summer employment, occupational training, work
experience, supportive services, leadership development opportunities, mentoring,
counseling, and follow-up services.

The following table provides appropriated funding for the Adult and Dislocated Worker
programs for fiscal years 2007 through 2010.


Table 6: Funding for WIA Adult, Dislocated Workers, and Youth Programs
(Formula Funds) for FYs 2007-2010 (does not include Recovery Act funds)
Program        FY 2007            FY 2008           FY 2009         FY 2010
Adult       $ 864,604,000        $ 849,101,000      $861,540,000   $861,540,000
Dislocated       $ 1,439,201,000            $1,446,189,000           $1,341,891,000         $1,413,000,000
Workers
Youth               $942,081,000              $924,069,000             $924,069,000          $924,069,000
Total             $3,245,886,000            $3,219,359,000           $3,127,500,000         $3,198,609,000

Source: FY 2009 Congressional Budget Justification. Employment and Training Administration. Overview; FY 2010
Congressional Budget Justification. Employment and Training Administration. Overview; FY 2011 Congressional
Budget Justification. Employment and Training Administration. Overview.


                                                                  Ensuring Access to WIA One-Stop System
                                                      72                      Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


Both Section 188 of WIA, 29 U.S.C. 2938 (WIA Section 188), and Section 504 of the
Rehabilitation Act of 1973 (Section 504), as amended, 29 U.S.C. 794 (Section 504)
prohibit discrimination on the basis of disability by covered recipients of Federal
financial assistance. Specific obligations regarding accessibility are imposed by
regulation.

The regulations implementing WIA Section 188 (29 CFR part 37) incorporate by
reference the accessibility provisions of Section 504 regulations, found in Subpart C of
29 CFR part 32. Under these provisions, covered recipients of financial assistance
must ensure both that their facilities comply with applicable standards for architectural
accessibility, and that their programs and activities comply with program accessibility
requirements.

The Civil Rights Center in the Office of the Assistant Secretary for Administration and
Management is responsible for developing, implementing and monitoring DOL’s civil
rights enforcement program under all equal opportunity and nondiscrimination
requirements applicable to programs or activities that are financially assisted or
conducted either by DOL or One-Stop partners listed in WIA Section 121(b) that offer
programs. These equal opportunity and nondiscrimination requirements include WIA
Section 188 and Section 504 of the Rehabilitation Act of 1973 (29 U.S.C.794).

The Office of Disability Employment Policy (ODEP) was established in FY 2001 in the
Omnibus Consolidated Appropriations Act (P.L. 106-554) to bring a permanent focus
within DOL and across the Federal government to develop and disseminate policy that
addresses the significant barriers to employment faced by individuals. ODEP supports
DOL’s efforts to serve people with disabilities in the One-Stop System through policy
research and analysis, pilot demonstration programs, technical assistance, and
outreach related to the employment of people with disabilities. Some examples of
ODEP’s efforts are its adult and youth technical assistance centers, which work with
employers to promote WIA employment and training services. In FY 2009, ODEP
provided technical assistance within the workforce system to improve post-school
outcomes for youth with disabilities through improved professional development of
youth service workers, the use of individual learning or graduation plans, and innovative
job training service models for transitioning youth, including those involved in foster
care, juvenile justice and mental health systems. ODEP also identified customized and
self-employment strategies, effective models, and policy and technical assistance for
the workforce system to improve the employment outcomes for youths and adults with
disabilities, utilizing its partnerships with ETA, the Department of Education, the Small
Business Administration and others.




                                                      Ensuring Access to WIA One-Stop System
                                            73                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                         Ensuring Access to WIA One-Stop System
               74                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

In response to a Congressional request, we obtained information from the Department
to answer the following questions:

   1. What are the Department’s goals for serving persons with disabilities?

   2. What information does the Department have regarding the characteristics and
      needs of persons with disabilities?

   3. What types of services are persons with disabilities receiving from the One-
      Stop System?

   4. What outcomes are achieved by persons with disabilities who use the O
                                                                          	 ne-
      Stop System?

   5. What evaluations of WIA services to persons with disabilities has the Department
      conducted?

Scope

The review covered Department of Labor (DOL) practices, policies, and procedures —
in place or planned as of December 31, 2009 — related to serving persons with
disabilities through the WIA One-Stop System.

We conducted interviews with officials from the Employment and Training
Administration (ETA), Office of Disability Employment Policy (ODEP), and the Civil
Rights Center (CRC) — within the Office of the Assistant Secretary for Administration
and Management — to gain an understanding of the Department’s goals,
responsibilities, and programs for ensuring that persons with disabilities have both
physical and programmatic access to WIA One-Stop services. We reviewed CRC’s
compliance assistance and enforcement activities related to Section 188 of the
Workforce Investment Act, including its processing of complaints filed by persons with
disabilities who allege discrimination in obtaining services from the WIA One-Stop
System. We reviewed evaluation reports related to DOL’s activities to ensure WIA One-
Stop accessibility to persons with disabilities, and interviewed DOL officials about how
the Department considers the reports’ findings and recommendations in strategic
planning. We reviewed relevant material and guidance on the web sites of ETA, ODEP,
and CRC, including the WIA Section 188 checklist and on-line training that CRC offers
on compliance with WIA Section 188.




                                                     Ensuring Access to WIA One-Stop System
                                           75                    Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


We also reviewed selected data on exiters from the WIA Adult, Dislocated Worker and
Youth Formula-funded programs from Program Years 2003-2008 to compare services
and outcomes for persons with disabilities and all exiters.

Fieldwork was conducted during December 2009 and January 2010 in
Washington, D.C., at the Employment and Training Administration, the Office of
Disability Employment Policy, and the Civil Rights Center in the Office of the Assistant
Secretary for Administration and Management.

Methodology

To answer the objectives, we initially developed a list of 30 questions covering the
following areas: DOL goals for serving persons with disabilities; characteristics and
needs of jobseekers with disabilities; WIA One-Stop services for persons with
disabilities; Outcomes for persons with disabilities that use the WIA One-Stop System;
and evaluation of WIA One-Stop services to persons with disabilities.

After holding entrance conferences with ETA, ODEP, and CRC, we sent each agency a
revised and “customized” list of questions based on our preliminary understanding of
their role in ensuring WIA One-Stop accessibility. We asked the agencies to address the
questions and to provide material (or references) to support their answers. The
questionnaires and the responses provided by ETA, ODEP, and CRC can be found in
Appendices D, E, and F, respectively.

We did not conduct fieldwork to verify the accuracy or reliability of information in the
agencies’ answers. We conducted follow-up interviews with officials from the three
agencies.

To understand the services and outcomes for persons with disabilities who use the WIA
One-Stop System, we reviewed selected data collected from the States and reported by
ETA through its Workforce Investment Act Standardized Record Data system. OIG
reviewed these data for Program Years 2003-2008.

Criteria

We used the following criteria to accomplish our review:

   •		 Workforce Investment Act of 1998
   •		 Final Regulations, Workforce Investment Act of 1998
   •		 29 CFR, Part 37 – Implementation of the Nondiscrimination and Equal
       Opportunity Provisions of the Workforce Investment Act of 1998
	




                                                       Ensuring Access to WIA One-Stop System
                                             76                    Report No. 25-10-001-03-390
                               U. S. Department of Labor – Office of Inspector General


                                                                       Appendix C
Acronyms

AED 	           Academy for Educational Development
BLS 	           Bureau of Labor Statistics
CFR 	           Code of Federal Regulations
CMS 	           Centers for Medicare and Medicaid Services
CRC 	           Civil Right Center
DOL 	           Department of Labor
DPN 	           Disability Program Navigator
EARN 	          Employer Assistance & Resource Network
ED 	            U.S. Department of Education
ETA 	           Employment and Training Administration
EOO 	           Equal Opportunity Officer
FPO 	           Federal Project Officer
FY 	 	          Fiscal Year
GAO 	           Government Accountability Office
HHS 	           U.S. Department of Health and Human Services
MOA 	           Methods of Administration
MOU 	           Memorandum of Understanding
MPR 	           Mathematica Policy Research, Inc.
OASAM 	         Office of the Assistant Secretary for Administration and
                Management
IRS 	           Internal Revenue Service
ITA 	           Individualized Training Account
ODEP 	          Office of Disability Employment Policy
OIG 	           Office of Inspector General
PY 	            Program Year
SSDI			         Supplemental Security Disability Income
SSI 	           Supplemental Security Income
Section 504 	   Section 504 of the Rehabilitation Act of 1973
UWR 	           United We Ride
VR 	 	          Vocational Rehabilitation
WIA 	           Workforce Investment Act
WIASRD 	        Workforce Investment Act Standardized Reporting Data
WISPR 	         Workforce Investment Streamlined Performance Reporting



                                               Ensuring Access to WIA One-Stop System
                                     77                    Report No. 25-10-001-03-390
           U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




                           Ensuring Access to WIA One-Stop System
                 78                    Report No. 25-10-001-03-390
                                            U. S. Department of Labor – Office of Inspector General


                                                                                         Appendix D
           1
Glossary


Architectural accessibility requirements: Under these requirements, recipients of
Federal financial assistance must provide physical accessibility in their covered
facilities, or portions of facilities, by constructing or altering them to comply with specific
technical standards. These standards, similar to building codes, have been developed
by the U.S. Access Board and adopted by the General Services Administration (GSA).2

Comprehensive access requirements: A general term referring to the range of
positive actions that covered recipients of Federal financial assistance must take in
order to provide people with disabilities with equal opportunity to participate in and
benefit from the programs, activities, and/or employment offered by the One-Stop
system – in other words, to “level the playing field” for individuals with disabilities.
Examples of such actions include providing architectural accessibility,3 program
accessibility,4 reasonable accommodations or modifications,5 service delivery in
integrated settings,6 and equally effective communications.7

Financial assistance: Under the Federal disability nondiscrimination laws that apply to
the One-Stop Career Center system, the term “financial assistance” refers to more than
just dollars and cents; it also includes nonmonetary, or “in-kind,” forms of assistance.
For example, a business or organization receives Federal “financial assistance” if it
uses the services of Federal personnel; if it is permitted to buy or use real or personal
property (such as space in a One-Stop Center or other Federally-assisted facility) for
free or at below-market rates; or if it is included on a list of eligible training providers.
The agreement or arrangement for the Federal financial assistance need not be in
writing in order for the recipient of the assistance to be covered by the applicable
disability laws.8

One-Stop Career Center system (also referred to as “One-Stop system”): The
national workforce preparation and employment system created by the Workforce
Investment Act of 1998 (WIA). The system is based on the “One-Stop” concept:
1
         Source: The definitions below were provided by CRC.
	
2
         See Final Rule, “Federal Management Regulation; Real Property Policies Update,” 70 FR 67786
et seq. (November 8, 2005), adopting the Americans with Disabilities Act (ADA) - Architectural Barriers
Act (ABA) Accessibility Standards for facilities that are subject to the ABA. Because they have been
adopted by GSA, these standards are applicable to entities covered under the WIA nondiscrimination
regulations. See 29 CFR 32.28(c), in DOL’s regulations interpreting Section 504 of the Rehabilitation Act
of 1973. Subparts B and C and Appendix A of these regulations are incorporated by reference in the WIA
nondiscrimination regulations. 29 CFR 37.3(b).
3
         29 CFR 32.28(c).
4
         29 CFR 32.27.
5
         29 CFR 37.8.
	
6
         29 CFR 37.7(a)(4), (c), (d), and (f).
7
         29 CFR 37.9.
	
8
         See 29 CFR 37.4, definitions of “financial assistance” and “financial assistance under Title I of
WIA.”
                                                                   Ensuring Access to WIA One-Stop System
                                                       79                      Report No. 25-10-001-03-390
                                             U. S. Department of Labor – Office of Inspector General


making information about, and access to, a wide array of job training, education, and
employment services available for customers at a single neighborhood location, known
as a “One Stop Career Center.”9 Under WIA, a wide range of previously-fragmented
programs, which receive financial assistance from the Department of Labor or other
Federal departments and agencies, must be offered through the One-Stop system;
other programs and activities may also be offered through the system, with the approval
of the local workforce investment board and local elected official.10 The programs
providing services through the One-Stop system are referred to as One-Stop partners.
All services designated as “core services” by WIA must be provided through not less
than one physical One-Stop Center in each local area, which may be supplemented by
multiple additional sites and technological networks.

Physical accessibility:. This term is a general term for the condition under which a
particular built environment is as usable by persons with various types of disabilities or
impairments as it is by persons without such disabilities or impairments. Under the
Federal disability nondiscrimination laws that apply to the One-Stop Career Center
system, there are two types of physical accessibility requirements: architectural
accessibility requirements, and program, or programmatic, accessibility requirements.

Program, or programmatic, accessibility requirements: Like architectural
accessibility, programmatic accessibility is a form of physical accessibility.11 Unlike
architectural accessibility, providing programmatic accessibility generally does not

9
          Government Accountability Office Report GAO-05-54, “Workforce Investment Act: Labor Has
Taken Several Actions to Facilitate Access to One-Stops for Persons with Disabilities, but These Efforts
May Not Be Sufficient” (December 2004), at page 1, “Results in Brief”; see generally Employment and
Training Administration (ETA), “The ‘Plain English’ Version of the Workforce Investment Act of 1998”
(September 1998, last updated January 07, 2010), available at
http://www.doleta.gov/usworkforce/wia/Runningtext.cfm (last accessed March 4, 2010), sections entitled
“Empowering the Nation’s Jobseekers” and “A Customer-Focused System: ‘One-Stop’ Approach,” and
Appendix, section entitled “’One-Stop’ Service Delivery.”
10
          ETA, “Summary of Workforce Development Provisions of The Workforce Investment Act Of 1998
(P.L. 105-220)” (last updated January 07, 2010), available at
http://www.doleta.gov/usworkforce/wia/summarywia.cfm (last accessed March 4, 2010), section entitled
“Establishment of One-Stop Delivery Systems.”
11
          See, e.g., U.S. Access Board, “Accessible Rights-of-Way: A Design Guide” (November 1999),
Section 2.3, “Program Accessibility in Existing Facilities” (detailed discussion of program accessibility in
the ADA context), available at http://www.access-board.gov/prowac/guide/PROWGuide.htm#2_3, and sidebar
to Section 2.3 (explanation of first use of concept of “program accessibility”), available at
http://www.access-board.gov/prowac/guide/sidebarp20.htm (both pages last accessed March 4, 2010); U.S.
Access Board on-line publication “About ADAAG: Frequently Asked Questions” (“ADAAG FAQ”),
available at http://www.access-board.gov/adaag/about/FAQ.htm#g13 (last accessed December 30, 2009),
responses to Questions 13 and 14; U.S. Department of Justice publication “ADA Guide for Small Towns,”
Part One, Section 1, “Existing Facilities: Program Accessibility” (last update: August 20, 2007), available
at http://www.ada.gov/smtown.htm#anchor12335 (last accessed March 4, 2010); DBTAC National Network of
ADA Centers, “FAQs: Frequently Asked Questions for State and Local Government on the ADA,”
response to question “What is program access? How can State and local government agencies ensure
programs and services are accessible to individuals with disabilities?” available at
http://adacourse.org/solutions.php (last accessed March 4, 2010) (“As a general rule, a public entity may not
deny the benefits of its programs, activities, and services to individuals with disabilities because its
facilities are physically inaccessible”).
                                                                   Ensuring Access to WIA One-Stop System
                                                      80                        Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


require compliance with a specific set of technical standards. Rather, it permits a more
flexible approach, under which a recipient may take various common-sense steps to
ensure that the physical aspects of each covered program or activity are “readily
accessible to” persons with disabilities “when each part is viewed in its entirety.”12 Such
common-sense steps include “redesign of equipment, reassignment of classes or other
services to accessible buildings, assignment of aides to beneficiaries, home visits,
delivery of services at alternate accessible sites, alteration of existing facilities and
construction of new facilities . . . or any other method that results in making [a
recipient’s] program or activity accessible to” persons with disabilities.13




12
       29 CFR 32.27(a).
13
       29 CFR 32.27(c).
                                                      Ensuring Access to WIA One-Stop System
                                            81                    Report No. 25-10-001-03-390
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                        Ensuring Access to WIA One-Stop System
              82                    Report No. 25-10-001-03-390
                                      U. S. Department of Labor – Office of Inspector General


                                                                                Appendix E
ETA Questionnaire and Responses

            WIA SERVICES FOR PERSONS WITH DISABILITIES
    QUESTIONS FOR THE EMPLOYMENT AND TRAINING ADMINISTRATION


I. Department of Labor’s Goals for Serving People with Disabilities

   1. What are ETA’s goals for providing comprehensive access to the WIA One-Stop
      system for persons with disabilities?

      Answer: ETA’s goal is to have a One-Stop Career Center system that provides
      integrated, meaningful, and effective participation in all WIA-funded programs
      and activities that are physically, programmatically, communications accessible
      to persons with a range of disabilities.

   2. What does ETA know about the States’ goals for providing comprehensive
      access to the WIA One-Stop system for persons with disabilities?

      Answer: WIA requires states to submit 5-year State Plans. After PY 2010, State
      Plans will have to be submitted at least every two years, and a “rolling
      submissions” option will allow states flexibility to update their State
      The state plan requirements include that states: identify major customer
      segments (including persons with disabilities), their needs, and the state’s ability
      to meet them; and provide information on how they will implement services to
      “special populations,” including adults and youth with disabilities. The state plans
      are reviewed by the National and Regional ETA Offices. In addition, the ETA
      Regional Federal Project Officers (FPOs) use a Core Monitoring Guide, when
      conducting project site visits. This Guide includes questions about accessibility
      for persons with disabilities (i.e., Objective 2.3, Civil Rights, Indicator 2.33 relates
      to whether the “grantee location and facility, or part of the facility, is accessible
      and useable by persons with disabilities.”) and other questions pertaining to
      strategies to recruit and serve participants who meet the target group criteria
      identified in the grant (i.e.., Indicator 4.13). The FPOs report on this element in
      their monitoring reports.

      Lastly, to receive DOL/ETA funding under the Disability Program Navigator
      (DPN) grant initiative, the states must:

              “Provide a comprehensive action plan, which addresses compliance with
             specific legal requirements related to architectural and programmatic
             accessibility of One-Stop Career Centers, provisions of equally-effective
             communication for and with individuals with disabilities, provision of
             reasonable accommodations and modifications, and general
             nondiscrimination and equal opportunity for individuals with disabilities.
                                                       Ensuring Access to WIA One-Stop System
                                             83                    Report No. 25-10-001-03-390
                                  U. S. Department of Labor – Office of Inspector General


          Applicants must confirm that all One-Stop Career Centers in the state
          comply fully with the applicable requirements related to architectural
          accessibility, as set forth at 29 CFR 32.36 through 32.28. If all the One-
          Stops do not comply fully with the applicable accessibility requirements,
          applicants should identify any outstanding accessibility issues of non-
          compliance in the state, including: (a) plans for corrective action, such as
          addressing communication elements and features; (b) a time-line by which
          the corrective action will occur; and (c) the approximate level of funds that
          are required for completion. The timeline for completion must not exceed
          six months following the award.” (DPN SGAs, 2003-2008). The DPN
          state grantees have indicated to the National DPN Program Office that
          their state undergoes annual or bi-annual EEO compliance reviews,
          including accessibility.

   Based upon the DPN annual grant submissions (which include approximately 42
   state grantees), reviews of accessibility are conducted regularly by EEO staff or
   others utilizing the Section 188 Checklist or other approved assessment tool.
   ETA’s information about the States’ goals for providing comprehensive access to
   the WIA One-Stop system for persons with disabilities is derived from the above-
   mentioned sources. This information leads ETA to believe that there has been
   significant improvement in the One-Step Career Center’s accessibility since the
   passage of WIA in 1998.

   Also, states are required to have a Methods of Administration (MOA), which
   details how the state will ensure compliance with the Nondiscrimination and
   Equal Opportunity Regulations for WIA, including Section 188 of WIA and its
   implementing regulations (29 CFR part 37), that pertains to people with
   disabilities. The Civil Rights Center (CRC), ETA, and ODEP, issued the Section
   188 Disability Checklist, July 22, 2003, which was designed to assist recipients of
   WIA Title I Federal financial assistance ensure that their Stop Career Center
   delivery system is accessible. All Governors must submit an MOA that has been
   approved by the CRC Director at least very two years

   ETA and ODEP are also working on a joint collaboration as part of the FY/PY
   2010 appropriation language. Plans include an evaluation of accessibility in
   One-Stop Career Centers. Results are expected to be available in FY 2011.

3. How does ETA measure progress towards improving access to the WIA One-
   Stop system by people with disabilities?

   Answer: By using the WIA performance measures and compiling
   qualitative/anecdotal information from the DPN grantees, stakeholders, etc.

4. Has ETA conducted any risk assessment to identify factors that could limit
   accessibility of WIA One-Stop services to people with disabilities? Has ETA
   developed a risk management plan to address them?

                                                  Ensuring Access to WIA One-Stop System
                                        84                    Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General



      Answer: No

   5. In a December 2004 Report (“Labor Has Taken Several Actions to Facilitate
      Access to One-Stops for Persons with Disabilities, but These Efforts May Not Be
      Sufficient,” GAO-05-54), GAO recommended that DOL should develop and
      implement a long-term plan for ensuring that the one-stop system complies with
      the comprehensive access requirements for people with disabilities. GAO
      subsequently reported that DOL had developed a framework, finalized and
      approved the then ETA Assistant Secretary, which sets forth the ideal goals that
      DOL seeks to accomplish to promote excellence in service delivery for people
      with disabilities in the One-Stop Career Center system. Is the framework that
      GAO references a written document? If so, please provide a copy.

      Answer: Yes. OPDR has the final copy, which was signed off on by ETA,
      CRC, and ODEP.

II. Characteristics and Needs of Jobseekers with Disabilities

   1. For each of the following items, what additional information does ETA collect and
      review, in addition to WIASRD, about the characteristics and needs of jobseekers
      with disabilities that use the WIA One-Stop system?

         •   What sectors of the economy are likely to hire persons with disabilities?

         •   What is known about employment histories?

          Answer: ETA has not conducted a systematic study of these issues.
      However, there has been limited information compiled on these questions from
      ETA’s DPN state grants. WIASRD data is limited and does not include specific
      disability characteristics such as sensory or mobility limitations. In addition,
      many individuals with disabilities that access the One-Stop system do not
      disclose their disability.

      ETA is in the process of conducting a quantitative evaluation involving four DPN
      state grantees utilizing Mathematica Policy Research, Inc. which will take
      individualized WIA and Wagner-Peyser data on service levels and outcomes and
      comparing these against Social Security Administration’s disability rolls. ETA
      expects to get the MPR report some time in February or March. There will be
      more characteristic information in the SSA data and may provide some analysis
      of trends.

   2. Has ETA noticed any change in the characteristics of this group since PY 2005?

      Answer: Not specifically. However, there is accepted knowledge in the
      workforce and disability fields that unemployment increases the likelihood of
                                                    Ensuring Access to WIA One-Stop System
                                          85                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General


      latent disability issues surfacing that were previously dormant or new disabilities
      emerging due to stress of unemployment. Given the state of the economy over
      the past two years, there is likely a substantial increase in job seekers with
      disabilities who are accessing the One-Stop system. It is also known that many
      populations with significant barriers to employment, such as TANF and ex-
      offenders, have a large incidence of disability. The current economy makes it
      less likely that these individuals will be able to obtain self-sustaining employment
      and will be in need of training and support services through the workforce
      system.

   3. How does ETA use these data to plan WIA services to meet the needs of
      jobseekers with disabilities that use the One-Stop system?

      Answer: The planning and delivery of services is established at the state and
      local level under the WIA.

   1. What does ETA know about similar information that he States may collect and
      use in planning employment and training services (both WIA and non-WIA) to
      people with disabilities?

      Answer: This information is compiled on a limited basis from the DPN state
      grantees. It would also be included in the state WIA plans and annual reports.

III. WIA One-Stop Services to Jobseekers with Disabilities

Statutory Responsibilities and Oversight

   1. What are ETA’s statutory responsibilities to ensure States and local workforce
      investment areas (LWIAs) provide physical and programmatic access for persons
      with disabilities?

      Answer: WIA, Section 188, 29 CFR 32.36 through 32.28.

   2. What role does ETA play to ensure the States and LWIAs are complying with
      Section 188 of WIA (e.g., CRC enforcement, ETA Regional Office monitoring)?
      What guidance has ETA issued on Section 188 compliance?

      Answer: Refer to answer #1. ETA, CRC, and ODEP issued a
      Memorandum and WIA Section 188 Disability Checklist to all: State
      Workforce Liaisons, Workforce Agency Administrators, One-Stop Career
      Center Leads, State EO Officers, Job Corps Contractors, Job Corps
      Center Directors, and National Program Grantees, on July 22, 2003. The
      Regional Offices conduct comprehensive reviews of states, using the Core
      Monitoring guide, which includes compliance with sec. 188.



                                                     Ensuring Access to WIA One-Stop System
                                           86                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General


Use of WIA Services by People with Disabilities

   1. Is use of WIA Adult and Dislocated Worker Program services (e.g., Core,
      Intensive, Training, ITAs) by individuals with disabilities significantly different than
      use by those without disabilities, and what factors may explain any differences?

      Answer: ETA does not collect data that would support or refute this statement.

   2. Is use of WIA Youth Program services (e.g., education, employment services,
      youth development) by individuals with disabilities significantly different than use
      by those without disabilities, and what factors may explain any differences?

      Answer: There are much higher reported numbers of youth with disabilities
      accessing WIA services than adults with disabilities. The reasons may be
      because: youth with disabilities transitioning from special education into the WIA
      system are already self-identified as having a disability (i.e., have an IEP) and
      eligibility for WIA youth services permit a youth with a disability to be a family of
      one, thereby easing income eligibility. Utilization of specific services by youth
      have not been analyzed.

   3. What percent of individuals with disabilities, that used training services, received
      an Individual Training Account? What did they get trained for? What types of
      jobs did they obtain (e.g., occupation of employment)?

      Answer: ETA will provide the information that is available at a later date.

   4. Does training for WIA One-Stop staff include how to work more effectively with
      jobseekers with disabilities?

      Answer: Yes, in those One Stop Career Centers that have Disability Program
      Navigators. A major role of the DPNs was to train One-Stop Career Center and
      partner staff on how to serve customers with disabilities, assessments, outreach,
      community-based resources, disclosure, assistive
      technology/accommodations/universal design, work and tax incentives, Federal,
      state, and local services, benefits, etc.
      ETA also worked with the Disability Business and Technical Assistance
      Coordinating (DBTAC) grants to develop a free, on-line training for One-Stop
      staff called “At Your Service”. ETA has also hosted many webinars on disability
      related issues on Workforce3One which is available to One-Stop staff. ETA has
      recently implemented a community of practice platform page on Workforce3One
      that includes videos and narratives on successful practices when working with
      individuals with disabilities in the workforce system. Further, the new ETA-ODEP
      Disability and employment Coordination Initiative plans to develop a curriculum
      module for front-line One-Stop Career Center staff on serving customers with
      disabilities.


                                                       Ensuring Access to WIA One-Stop System
                                             87                    Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General


   5. Have local workforce areas that received “Disability Navigator” grants achieved
      their objectives?

      Answer: Some states have performed better than others and achieved greater
      overall success. The DPN Initiative was designed as a pilot program and has
      been generally identified as very successful. Based upon this success, ETA
      expects the states to fund the DPNs on a permanent basis through other
      workforce resources.

   6. Did “Disability Navigator” grants result in expanded system capacity to serve
      people with disabilities?

       Answer: Please see attachment which provides information that is based upon
      informal surveys of DPN grantees.

One-Stop Partners

   1. What activities has ETA conducted to engage employers in planning WIA
      employment and training services for people with disabilities? What are the
      outcomes of these efforts?

     Answer: ETA has engaged employers in planning WIA employment and
     training services to people with disabilities mainly on the State and LocalWIB
     levels, through the work of the DPNs s, including their work with local Business
     Leadership Networks (BLNs) and local Business Advisory Councils. There has
     been an increased number of training (including the development of materials)
     targeted to local business on the business case for hiring persons with
     disabilities/ROI.

      2. What procedures does ETA have in place to assess and improve how it works
      with other One-Stop partners that can provide services to people with disabilities
      (e.g., Vocational Rehabilitation, Adult Education, and TANF)?

      Answer: ETA staff work closely with other Federal partners (e.g.,VR, Adult
      Education, TANF, SSA, etc.) to coordinate and leverage resources to improve
      employment outcomes for individuals with disabilities. ETA has been and
      continues to be involved in several major inter-agency Initiatives with these
      Federal partners around disability and employment- related issues.

IV. Outcomes for People with Disabilities That Use WIA One-Stop System

   1. In addition to data reported in WIASRD, does ETA have additional information on
      the following questions:

      •		 What are the outcomes for people with disabilities that “exit” from the WIA
          One-Stop system?
                                                    Ensuring Access to WIA One-Stop System
                                          88                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General



          Answer: No.

      •		 For those “exiters” who obtain employment, what types of jobs do they obtain
          (e.g., occupation of employment)?

          Answer: No.

   2. Has ETA provided guidance to local workforce areas on how to work with
      employers and other agencies to increase retention and earnings for people with
      disabilities?

      Answer: No

   3. What does ETA know about the impact of providing this guidance (e.g., has it
      increased retention and earnings)?

      Answer: No.

   4. What is the status of participants with disabilities that did not “exit” from the
      programs?

      Answer: ETA does not have data on this.

V. 	 Evaluation of WIA Services to People with Disabilities

   1. What independent evaluations has ETA done to assess the WIA One Stop
      system’s capacity to serve jobseekers with disabilities?

      Answer: As mentioned above, ETA is conducting an independent evaluation of
      the DPN initiative under a contract with MPR. Other independent evaluations
      have been conducted under other entities such as the Urban Institute report for
      the Ticket to Work and Work Incentives Advisory Panel entitled, “Serving People
      with Disabilities Through the Workforce Investment Act’s One-Stop Career
      Centers,” November 4, 2004.

   2. What are the evaluations’ objectives?

      Answer: DPN evaluation is to determine the impact of the DPNs on workforce
      services and outcomes for Social Security Administration disability beneficiaries.
      Specifically, ETA expects to see the level of usage of WIA and Wagner-Peyser
      services by these beneficiaries, the extent to which these individuals disclose
      their disability, any characteristics information that impacts services and
      outcomes, and the extent to which these beneficiaries obtain employment and
      exit the SSA rolls.


                                                       Ensuring Access to WIA One-Stop System
                                             89                    Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General


   3. What were the outcomes of the evaluations (e.g., findings and
      recommendations)?

      Answer: N/A (The Report cited above stated that “The One-Stop system as a
      whole-often with the help of special grant funding [ETA- funded WIGs and DPNs]
      has made significant strides since WIA’s inception in reducing barriers pertaining
      to physical access and inability to address special accommodation needs. There
      also appears to be growing recognition that the focus on accessibility for people
      with disabilities with respect to the One-Stop system must move beyond physical
      and technological access to include a broader effort to address programmatic
      access. Although there is no comprehensive source of information available to
      determine how fully programmatic accessibility has been achieved across the
      One-Stop system, various case studies of One-Stop Career Centers suggest that
      progress has been made in this area as well-although generally not as much as
      with improving physical and technological access….” (Page #2)

   4. What actions have ETA taken or plan to take as a result of evaluation findings
      and recommendations?

      Answer: Although ETA has not conducted independent evaluations to assess
      the WIA One Stop system’s capacity to serve jobseekers with disabilities, it has
      listened to disability stakeholders, the One-Stop Career Centers staff, and other
      reports and responded by funding the Work Incentive Grants (WIGs) from 2000-
      2006 and the DPN grants from 2003-until 2010; both of these initiatives focused
      on expanding the capacity of the One-Step Career Center system to serve
      persons with disabilities by: promoting physical, programmatic, and
      communications accessibility; training front-line One-Stop and partner staff;
      purchasing assistive technology; developing with community-based organizations
      and mandated and non-mandated One-Stop partners; conducting outreach to
      persons with disabilities; conducting outreach to employers.

Additional Questions for ETA:

   1. How does ETA coordinate and communicate with CRC and ODEP in ensuring
      that States and LWIAs are complying with Section 188?

      Answer: ETA meets and consults with both CRC and ETA on an as needed
      basis on issues related to accessibility of the One-Stop Career Centers. There
      have been joint webinars, conference workshops and grantee teleconferences
      conducted jointly with CRC and ODEP. If CRC finds any Section 188 violation in
      a state’s One-Stop system, it informs ETA and both agencies (including the
      Regional Office) try to work on a resolution of the issue.




                                                    Ensuring Access to WIA One-Stop System
                                          90                    Report No. 25-10-001-03-390
                                 U. S. Department of Labor – Office of Inspector General


2. What are the goals and plans for the joint $24 million project with ODEP “built on
   lessons learned” from the Disability Program Navigator grants?

   Answer: In anticipation of the new funding, ETA and ODEP established a
   collaborative, integrated team composed of representatives from both agencies
   and have met a number of times to determine the approach to the use of the
   funds. A Report to Congress is due Jan 15, 2010 and this is currently in DOL
   clearance. ETA and ODEP are also in the process of finalizing a Memorandum
   of Agreement on coordination activities. This is also in clearance. A work plan
   has also been developed that includes timelines and implementation activities.




                                                 Ensuring Access to WIA One-Stop System
                                        91                   Report No. 25-10-001-03-390
                                                             U. S. Department of Labor – Office of Inspector General


                                                                                                                     Attachment

                                          Evaluation of the DPN Initiative

Data collected over the past 6 years provides a strong picture of improved access and
an increase in the effective and meaningful participation of individuals with disabilities in
the workforce investment system through the work of the Disability Program Navigators.

                        Changes in the Workforce Investment SystemAttributed to the DisabilityProgram
                          Navigator: Percentage of Navigators ActivelyInvolved in Facilitating Change
            Improving Access to Adaptive Equipment and Technology
                                                                                                      90% 87%
                                                                              90%
            Improving Communication Access
                                                                                                             82%
                                                                              80%   72%                            74%
                                                                                          68%
            Providing Strategies and Resources to Remove Barriers             70%               64%

                                                                              60%
            Actively Developing Relationships with Mandated and Non-
            Mandated Partners                                                 50%
            Increased Staff Knowledge of Serving People w/ a wide             40%
            range of Disabilities
            Guiding One-Stop Staff in Assisting People w/ Disabilities        30%
            in Obtaining and Maintaining Employment
                                                                              20%
            Facilitating Transition of In and Out of School Youth w/
            Disabilities                                                      10%
                                                                               0%



Changes in the Workforce Investment System attributed to the Navigator:
  o		 One Stop Career Centers are more accessible (physically, programmatically and
      attitudinally).
           •		 72% are working to ensure that adaptive equipment and technology is
               readily available in One Stop Career Centers and to make sure the staff is
               trained in its use.
           •		 68% are working to improve communication between the staff in the One
               Stop Career Center and other systems of support.
           •		 64% are working to identify strategies and resources that remove barriers
               to program access and services.
  o		 One Stop staff has more tools and resources to serve all customers.
           •		 Developing relationships with mandated and non-mandated partners to
               foster collaboration in the delivery of services for a diverse population of
               customers, 90%.
           •		 Increasing staff knowledge on serving customers with a wide range of
               disabilities, 87%.
           •		 Guiding One Stop staff in helping people with disabilities access and
               navigate the various programs that impact their ability to retain
               employment, 82%.
  o	 Youth with disabilities are being connected to the workforce investment system.
           •		 74% are facilitating the transition of in or out of school youth with
               disabilities to obtain employment and economic self-sufficiency.

                                                                                    Ensuring Access to WIA One-Stop System
                                                                         92                     Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General


   o		 The Navigator is helping to build the bridge between partner and community
       agencies and the One Stop to reduce duplication of services.
          •		 Over 80% of Navigators have established or participate on a local
              interagency action committee to address systems level barriers to
              employment for groups of job seekers with disabilities on a regular basis.
              The primary partners represented in these working groups include: VR
              Counselor (68%); community based organizations (64%); and One Stop
              WIA Counselors.

Building System Capacity through Connections with Other Initiatives
Promotion of employment as a means to advance economic self-sufficiency for all
people, including people with disabilities, ties into asset building strategies (Individual
Development Accounts, Earned Income Tax Credit), and the workforce system
becoming Employment Networks (ENs) through SSA’s Ticket to Work Program.

Through building relationships with other programs, the DPN Initiative has served as the
liaison to the workforce investment system to help expand opportunities for job seekers
with disabilities. Navigators are involved in these collaborative efforts to leverage
resources and create system change. Two such efforts include the aforementioned
asset building strategies and the Ticket to Work Program.

Real Economic Impact Tour (REI Tour)
The National Disability Institute and Internal Revenue Service (IRS) through the Real
Economical Impact Tour (REI Tour) is bringing free tax preparation and other asset
building strategies to workers, with and without disabilities, with low incomes. The
national DPN Program Office is working with this initiative to show how the public
workforce investment system can assist in creating economic transformation in regional
economies across the nation through innovative asset building strategies.

Through this relationship, DPNs have been instrumental in connecting One Stop Career
Centers to this tour to help build partnerships that are contributing to their region's
economic development vision through free tax preparation (Volunteer Income Tax
Assistance and use of the Earned Income Tax Credit (EITC), other asset building
strategies, referral, and resource information dissemination.
    •		 Since 2005, the REI Tour provided free tax-filing assistance to 151,751
        taxpayers with disabilities with refunds of $136,374,700.
            o The REI Tour grew from 11 cities in 2005 to 62 cities in 2008.
    •		 In the 2008 filing season, REI Tour partners prepared over 90,000 tax returns
        with over $81 million in refunds received by persons with disabilities.
            o Of the 62 REI Tour cities, DPNs were national partners in 39 (63%).




                                                        Ensuring Access to WIA One-Stop System
                                             93                     Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General




   Source: Building a Better Economic Future for Americans with Disabilities Annual
   Progress Report on the 2007 - 2008 Real Economic Impact Tour. National
   Disability Institute. Available at http://www.reitour.org/

   •   In 2009, there are 84 participating cities.
           o DPNs are national partners in approximately 66 (79%).

Most Significant REI Tour Accomplishments in 2008
   •		 Increased free tax returns prepared by 150% from 2007, and assisted 90,653
       persons with disabilities in 2008.
   •		 Increased refunds to taxpayers with disabilities from 2007 to 2008, from $32.6
       million to $81.5 million.
   •		 Created over 2,016,165 outreach contacts in asset building education and media
       information in 2008.
   •		 Convened national veteran workgroup that is building strategies to better serve
       veterans with disabilities in the 2009 filing season.

Ticket to Work Program
The 2005 proposed changes to the Ticket to Work regulations established a renewed
enthusiasm for the potential benefit of the Ticket to Work program for both Ticket
Holders and Employment Networks that provide the services to meet their return to
work needs. Since the passage of the 1999 Ticket to Work and Work Incentives
Improvement Act, the Social Security Administration has contracted with several entities
to support the administration of the Ticket program. In November 2007, National
Disability Institute became a sub-contractor of one such entity, CESSI, to educate local
and State Workforce Boards on how the proposed changes impact their role in the
Ticket program and to support them in making the decision to serve Ticket Holders as
an Employment Network (EN).

Working in close partnership with the Disability Program Navigator Initiative, DOL-ETA,
CESSI, SSA, and other contracted partners, success has been achieved through a
strategic approach of national training, state directed training, individual technical
assistance, Workforce specific marketing materials, the inclusion of national partners
and the leveraging of trusted relationships.

                                                     Ensuring Access to WIA One-Stop System
                                           94                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General


   •		 To date, NDI in partnership with the national DPN Program Office has utilized
       state and local level DPN grantees to engage Workforce Systems in 40 of the 50
       states, the District of Columbia and Puerto Rico to explore the option of
       becoming an EN.
   •		 Over the past 19 months, 6 State Workforce entities and Regional entities have
       become ENs, resulting in 119 new One Stop locations in 16 States, Puerto Rico
       and the District of Columbia that accept Tickets.
           o		 In 2008, nearly 30% of the 292 new Employment Networks in 399
               locations were workforce investment entities.
           o		 Since the promotion of changes to the regulations in 2008, 21% of the 638
               new EN locations (or 135 new EN locations) are workforce investment
               entities.




Ticket to Work Impact Study
NDI provided support to one state, Iowa, and one region, Jacksonville, to study the
impact of the proposed Ticket payments on customers served by the One Stop system
in 2006. The data generated by the study confirms that One Stop Career Centers
provide services to a pool of Ticket Holders that did not identify themselves as having a
disability. These individual were successful in securing employment through the One
Stop system and worked at a level that would provide an EN payment to the One Stop
as an EN.
    •		 In Florida, 1,009 potential Ticket holders returned to work through services
        received as One Stop customers in 2006. The potential revenue, under the
        proposed Ticket regulations, for serving these Ticket Holders is $1,679,770.
                                                     Ensuring Access to WIA One-Stop System
                                           95                    Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General


   •		 In Iowa, 1,777 potential Ticket holders returned to work through services
       received as One Stop customers in 2006. The potential revenue, under the
       proposed Ticket regulations, for serving these Ticket Holders is $2,586,665.

June 2, 2009




                                                    Ensuring Access to WIA One-Stop System
                                          96                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General


                                                                             Appendix F
ODEP Questionnaire and Responses

               WIA SERVICES FOR PERSONS WITH DISABILITIES
                          QUESTIONS for ODEP

I. Department of Labor’s Goals for Serving People with Disabilities

   1. What are the Department of Labor’s (DOL) goals to serve people with disabilities
      through the WIA One-Stop system?

      Specific Questions for ODEP: How does ODEP support the DOL in answering
      achieve its goals to serve people with disabilities through the WIA One-Stop
      System (strategic plan)

      ODEP supports DOL’s efforts to serve people with disabilities in WIA One-Stop
      System through policy research and analysis, pilot demonstration programs,
      technical assistance, and outreach related to the employment of people with
      disabilities.

   2. What does DOL know about the States’ goals for providing employment and
      training services to people with disabilities?

      Specific Questions for ODEP: What does ODEP know about the States’ goals?

      States do not set specific goals or targets for serving people with disabilities.
      Through our technical assistance efforts, ODEP works with states to increase
      their service capacity and coordination efforts across the workforce development
      systems (e.g., vocational rehabilitation, mental health, etc.) to serve people with
      disabilities.

   3. How does DOL measure progress towards achieving its goals for serving people
      with disabilities through the WIA One-Stop system?

      Specific Questions for ODEP: How does ODEP measure its progress towards
      achieving its goals for serving people with disabilities?

      The WIA does not specify goals or targets for service delivery. ODEP does not
      provide direct service to people with disabilities. ODEP’s work is focused on
      policy, research, evaluation, and analysis of the systems that provide services.
      ODEP’s long term outcome goal is “implementation of ODEP identified disability
      employment-related policy and practices by targeted agency partners, and public
      and private employers.” This goal is measured by achieving system-wide
      change through the “number of targeted Federal, state, and local agencies and
      employers implementing ODEP identified disability employment-related policy
      and practices.”
                                                     Ensuring Access to WIA One-Stop System
                                           97                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General



   4. Has DOL conducted any risk assessment to identify factors that could prevent
      achieving these goals? Has DOL developed a risk management plan to address
      them?

      Specific Questions for ODEP: Has ODEP done any risk analysis related to
      identifying factors that could prevent achieving these goals?

      ODEP, in collaboration with CPPR, has conducted evaluations designed to
      assess the effectiveness of the agency’s performance measurement and results.
      An assessment completed in 2008 by Eastern Research Group, Inc., resulted in
      a recommendation to conduct an evaluation of ODEP’s redefined performance
      measures and supporting processes. In FY 2010 ODEP plans another
      evaluation to conduct an “Agency-wide look-back study to assess ODEP’s impact
      on disability employment and related systems” that is aligned with ODEP’s new
      performance measurement system.

II. Characteristics and Needs of Jobseekers with Disabilities

   1. What information does DOL (ETA, ODEP, and CRC) collect and/or review about
      the characteristics and needs of jobseekers with disabilities that use the WIA
      One-Stop system?

      In general ETA’s WIASRD data collection system collects general disability
      status of jobseekers with disabilities. The data are not categorized into disability-
      specific categories.

         •   What data are available about the characteristics of disabled job seekers?

         Characteristics include state and local program exiters with disabilities, age,
         gender, race/ethnicity, veteran status, number of exiters, employed at
         participation, wages, limited English language proficiency, single parents, UI
         status, public assistance recipient, homeless, offender, and education
         attainment,

         •   What are the variations by gender, race, etc.?

         In 2008 43% of adult exiters were women; 57% were men. 9.7% were
         Hispanic; 1.6% were American Indian or Alaskan Native; 1.3% were Asian;
         27.6% were African American; 57.1% were White; and 2.4% were more than
         one race. The data also indicate that 14.5% of youth served had a disability.

         •   What is known about employment histories?




                                                      Ensuring Access to WIA One-Stop System
                                           98                     Report No. 25-10-001-03-390
                                        U. S. Department of Labor – Office of Inspector General


          The 2008 data indicates that 12.2% of jobseekers with disabilities were
          employed at the time of program participation; and 87.8% were not employed
          or received a layoff notice.

          •   What sectors of the economy are likely to hire persons with disabilities?

          This data is not collected.

   2. How have the characteristics of this group changed since implementation of
      WIA?

      Although we have not conducted extensive research on this, ODEP has no
      evidence that these characteristics have significantly changed over time.

   3. How does DOL use these data to plan WIA services to meet the needs of
      jobseekers with disabilities that use the One-Stop system?

      This question is more appropriate for ETA, as the role of ODEP is strictly the
      provision of technical assistance and research to support their efforts.

   4. What does DOL know about similar information that the States collect and use in
      planning employment and training services (both WIA and non-WIA) to people
      with disabilities?

      Again, this question is more appropriate for ETA.

III. WIA One-Stop Services to Jobseekers with Disabilities

Statutory Responsibilities and Oversight

      No questions for ODEP at this time

Use of WIA Services by People with Disabilities

   1. Have local workforce areas that received “Disability Navigator” grants achieved
      their objectives?

      Specific Questions for ODEP: Has ODEP conducted any evaluations on the
      Disability Navigator grants? What are the goals of the $24 million FY2010
      initiative with ETA to build on “lessons learned” from the DNP grants?

      ODEP has not conducted any evaluations of the DPN initiative. The goals of
      the FY 2010 initiative are to develop a: (1) design for a strategic approach to
      accomplishing the expressed Congressional intent in order to achieve Good Jobs
      For All – including Persons with Disabilities; (2) work plan and timeline for
      implementing the activities in the overall design, including mechanisms and
                                                        Ensuring Access to WIA One-Stop System
                                              99                    Report No. 25-10-001-03-390
                                     U. S. Department of Labor – Office of Inspector General


      processes necessary for implementation; and (3) Memorandum of Agreement
      between our two agencies to formally establish the collaboration and set the
      parameters for oversight and accountability.


   2.		 Did “Disability Navigator” grants result in expanded system capacity to serve
        people with disabilities?

      Specific Question for ODEP: What does ODEP know about the grant results?

      ODEP, working with ETA, has recognized the successful results from the DPN
      initiative. ETA has shared the results of its DPN evaluation with ODEP and we
      have used this information to design our FY 2010 collaborative plans.

      In addition, prior ODEP pilot demonstration programs (youth and adult) were
      located in the One-Stops. Final results from these programs identified that the
      navigators were extremely useful in building systems capacity, including
      partnerships, capacity building, and sustainability of effective practices.

One-Stop Partners

   1. What activities has DOL (ODEP) conducted to engage employers in planning
      WIA employment and training services for people with disabilities? What are the
      outcomes of these efforts? Are you aware of any additional activities that DOL
      has done?

      ODEP currently funds an Employer Technical Assistance Center. The work of
      this center has just recently started (October 2009). We are currently working
      with the grantee on it’s work plan (final is due in January 2010). In collaboration
      with ETA, ODEP will ensure that the work plan includes employer engagement
      with the WIA system. In addition ODEP’s adult and youth technical assistance
      centers work with employers to promote WIA employment and training services.

   2. What procedures does DOL (ODEP) have in place to assess and improve how it
      works with other One-Stop partners that can provide services to people with
      disabilities (e.g., Vocational rehabilitation, Adult Education, TANF)?

      ODEP has an MOU with the Department of Education that outlines the
      procedures ODEP will put into place to enhance One-Stop partnerships with
      other Federal, state, and local agencies. For example, ODEP is aware that co-
      locating these agencies to improve access for people with disabilities is a
      somewhat effective practice. VR is a mandated WIA partner and we work with
      the Rehabilitation Services Administration to promote this and other identified
      best practices.



                                                     Ensuring Access to WIA One-Stop System
                                          100                    Report No. 25-10-001-03-390
                                       U. S. Department of Labor – Office of Inspector General


      ODEP leads the “Federal Partners in Transition Workgroup,” which is comprised
      of staff from DOL, ED, HHS, and SSA. The Workgroup focuses on improving
      outcomes for transition age youth with disabilities.

      ODEP is currently working through our national Technical Assistance Center
      housed at Rutgers University to promote leadership in state workforce agencies
      to partner with other state systems, including those that are disability specific
      (such as rehabilitation, social security etc) as well as generic (commerce, small
      business, TANF, etc.). Multiple strategies are being documented for successful
      partnership development through this activity.

      ODEP also implements a cross-agency workgroup on Asset Development and
      Financial Education composed of 18 federal programs and agencies (including,
      VR, HHS, CMS, SAMHSA, Commerce, Treasury, IRS and others). The focus of
      this cross agency work group is to coordinate and leverage activities with a focus
      on enhancing employment profitability for people with disabilities, including
      through activities of the One-Stop and their state and local partners.

      ODEP is partnering with the Centers for Medicare and Medicaid Services (CMS)
      to research and develop necessary information for expanded funding of
      supported and customized employment, including through the One Stop
      systems. This research will be completed later this year.


IV. Outcomes for People with Disabilities That Use WIA One-Stop System

   No questions for ODEP at this time.

   1. What are the outcomes for people with disabilities that “exit” from the WIA One-
      Stop System?

   2. For those “exiters” who obtain employment, what types of jobs do they obtain
      (e.g., occupation of employment)?

   3. Has DOL provided guidance to local workforce areas on how to work with
      employers and other agencies to increase retention and earnings for people with
      disabilities?

   4. What does DOL know about the impact of providing this guidance (e.g., has it
      increased retention and earnings)?

   5. What is the status of participants with disabilities that did not “exit” from the
      programs?




                                                       Ensuring Access to WIA One-Stop System
                                            101                    Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General


      Specific Question for ODEP: In addition to the information within WIASRD, does
      ODEP have any additional questions on outcomes related to the above
      questions?

      ODEP does not have additional questions at this time.

V. Evaluation of WIA Services to People with Disabilities

   5. What independent evaluations has DOL (ODEP) done to assess the WIA One-
      Stop system’s capacity to serve jobseekers with disabilities?

      ODEP is in the process of designing a survey to assess One-Stop programmatic
      and physical accessibility using the 188 regulations and “Check List” developed
      several years ago.

      ETA currently is conducting a longitudinal evaluation and the results are
      expected in the Spring of 2010.

      ODEP conducted an independent evaluation of its pilot demonstration programs
      from 2000 through 2008. This evaluation documents the extent to which projects
      built systems capacity of those One-Stop Centers to provide meaningful and
      effective services to people with disabilities. Systems change includes
      information on models of partnership across systems, universal design of
      programs and services, and successful models for service delivery for people
      with disabilities.


      Specific Question for ODEP: Are you aware of any other evaluations performed
      outside DOL, including those done by the States?

      ODEP is not aware of additional evaluations that specifically investigated WIA
      services to job seekers with disabilities.

   6. What are the evaluations’ objectives?

      Not applicable.

   7. What were the outcomes of the evaluations (e.g., findings and
      recommendations)?

      Not applicable

   8. What actions has DOL taken as a result of the evaluations?

      Not applicable.


                                                    Ensuring Access to WIA One-Stop System
                                          102                   Report No. 25-10-001-03-390
                                    U. S. Department of Labor – Office of Inspector General



Additional Questions for ODEP

   1. Since FY 2005, how has ODEP supported WIA One-Stop System accessibility
      through its grants program and other activities?

      ODEP’s pilot demonstrations programs were completed in 2008. Since that time,
      ODEP’s support to WIA One-Stop System accessibility has been achieved
      through on-going technical assistance and research.

   2. What have been the results of these grants and activities?

      ODEP’s technical assistance centers’ (Adult and Youth) results are currently
      being evaluated through an independent evaluation. This evaluation should be
      completed by April 2010.

   3. How does ODEP work with ETA and CRC to ensure WIA One-Stop System
      accessibility for people with disabilities?

ODEP collaborates with CRC and ETA on an ongoing and regular basis. One result
has been the proposed expansion of data collection of characteristics of jobseekers with
disabilities in the WISPR data system. ODEP has also collaborated with ETA and CRC
on the design of the survey previously mentioned. Finally ODEP, ETA, and CRC have
collaborated on numerous TENS and TEGLS and other policy documents to the
system.




                                                    Ensuring Access to WIA One-Stop System
                                          103                   Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
              104                    Report No. 25-10-001-03-390
                              U. S. Department of Labor – Office of Inspector General


                                                                       Appendix G
CRC Questionnaire and Responses




                                              Ensuring Access to WIA One-Stop System
                                   105                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     106                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     107                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     108                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     109                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     110                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     111                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     112                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     113                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     114                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     115                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     116                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     117                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     118                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     119                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     120                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     121                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     122                    Report No. 25-10-001-03-390
                              U. S. Department of Labor – Office of Inspector General


                                                                      Appendix H
Framework Developed in Response to GAO Report




                                              Ensuring Access to WIA One-Stop System
                                   123                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     124                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     125                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     126                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     127                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     128                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     129                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
              130                    Report No. 25-10-001-03-390
                         U. S. Department of Labor – Office of Inspector General


                                                                 Appendix I
AED Longitudinal Study




                                         Ensuring Access to WIA One-Stop System
                              131                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     132                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     133                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     134                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     135                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     136                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     137                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     138                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     139                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     140                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     141                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     142                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     143                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     144                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     145                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     146                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     147                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     148                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     149                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     150                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     151                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     152                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     153                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     154                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     155                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     156                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
              157                    Report No. 25-10-001-03-390
          U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                          Ensuring Access to WIA One-Stop System
               158                    Report No. 25-10-001-03-390
                                U. S. Department of Labor – Office of Inspector General


                                                                        Appendix J
Urban Institute Report (Executive Summary 110404)




                                                Ensuring Access to WIA One-Stop System
                                     159                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     160                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     161                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     162                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     163                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     164                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     165                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     166                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     167                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     168                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     169                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     170                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     171                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     172                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     173                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     174                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     175                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     176                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     177                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     178                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     179                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     180                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     181                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     182                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     183                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     184                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     185                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     186                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     187                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     188                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     189                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     190                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     191                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     192                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     193                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     194                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     195                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     196                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     197                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     198                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     199                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     200                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     201                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     202                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     203                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     204                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     205                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     206                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     207                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     208                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     209                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     210                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     211                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     212                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     213                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     214                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     215                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     216                    Report No. 25-10-001-03-390
                             U. S. Department of Labor – Office of Inspector General


                                                                     Appendix K
Chronic Homelessness Executive Summary




                                             Ensuring Access to WIA One-Stop System
                                  217                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     218                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     219                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     220                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     221                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     222                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     223                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     224                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     225                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     226                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     227                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     228                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     229                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     230                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     231                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     232                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     233                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     234                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     235                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     236                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     237                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     238                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     239                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     240                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     241                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     242                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     243                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     244                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     245                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     246                    Report No. 25-10-001-03-390
                          U. S. Department of Labor – Office of Inspector General


                                                                  Appendix L
Summary GAO Report 2004




                                          Ensuring Access to WIA One-Stop System
                               247                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     248                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     249                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     250                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     251                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     252                    Report No. 25-10-001-03-390
                                U. S. Department of Labor – Office of Inspector General


                                                                        Appendix M
2005 Four-State Study – National Overview Report




                                                Ensuring Access to WIA One-Stop System
                                     253                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     254                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     255                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     256                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     257                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     258                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     259                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     260                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     261                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     262                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     263                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     264                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     265                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     266                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     267                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     268                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     269                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     270                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     271                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     272                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     273                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     274                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     275                    Report No. 25-10-001-03-390
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         Ensuring Access to WIA One-Stop System
              276                    Report No. 25-10-001-03-390
                         U. S. Department of Labor – Office of Inspector General


                                                                 Appendix N
Westat Briefing Report




                                         Ensuring Access to WIA One-Stop System
                              277                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     278                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     279                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     280                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     281                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     282                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     283                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     284                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     285                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     286                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     287                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     288                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     289                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     290                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     291                    Report No. 25-10-001-03-390
U. S. Department of Labor – Office of Inspector General




                Ensuring Access to WIA One-Stop System
     292
	                  Report No. 25-10-001-03-390
